Table of Contents


03	   A quick look at the office of the inspector general	


04	   message from the inspector general	


06	   Executive Summary	


08	   Office of the Inspector General	


14	   Special Feature – 20th Anniversary	

               •		Former TVA IGs Join with OIG to Celebrate 20 Years of Statutory Independence
               •	 	A Former TVA Executive’s Perspective on the Formation of the OIG
               •	 	Statutory Independence Made A Difference
               •	 	Promoting Positive Change in TVA for 20 Years
               •	 	Promoting Operational Excellence
               •	 	Promoting Integrity in Financial Reporting
               •	 	Responding to Key Stakeholders
               •	 	Promoting Cost Reduction
               •	 	IT Reviews Grow in Importance
               •	 	Preventing and Detecting Fraud, Waste, and Abuse
               •	 	20-Year Cumulative Audit and Related Project Highlights	
               •	 An Award Winning IG’s Office

40	   summary of representative audits	


45	   summary of representative inspections	


48	   summary of representative investigations	


52	   Congressional request and summary of legislation and Regulations	


54	   Appendices	

               •	 	Appendix 1:	   Index of Reporting Requirements Under the IG Act
               •	 	Appendix 2:	   Audit Reports Issued	
               •	 	Appendix 3:	   Audit Reports Issued With Questioned Costs
                  		              and Recommendations That Funds be Put to Better Use	
               •	 	Appendix 4:	   Audit Reports With Corrective Actions Pending	
               •	 	Appendix 5:	   Investigative Referrals and Prosecutive Results	
               •	 	Appendix 6:	   Highlights This Semiannual Period	
               •	 	Appendix 7:	   Glossary, Abbreviations, and Acronyms

               •	 	Appendix 8:	   Tennessee Valley Region Map




                                                                  2
A Quick Look at the Office of the Inspector General




The Office of the Inspector General (OIG) is an independent
organization charged with conducting audits, inspections,
and investigations relating to Tennessee Valley Authority
(TVA) programs and operations, while keeping the TVA
Board and Congress fully and currently informed about
problems and deficiencies relating to the administration of
such programs and operations.

                                  The OIG focuses on (1) making TVA’s        or violations of TVA’s Code of
                                  programs and operations more               Conduct, you should contact the
                                  effective and efficient; (2) preventing,   OIG Empowerline system. The
                                  identifying, and eliminating waste,        Empowerline is administered by a
                                  fraud, and abuse and violations            third-party contractor and can be
                                  of laws, rules, or regulations; and        reached 24 hours a day, seven days a
                                  (3) promoting integrity in financial       week, either by a toll-free phone call
                                  reporting.                                 (1-877-866-7840) or over the Web
                                                                             (www.oigempowerline.com). You may
                                  If you would like to report to the OIG
                                                                             report your concerns anonymously or
                                  any concerns about fraud, waste,
                                                                             you may request confidentiality.
                                  or abuse involving TVA programs


                                  OIG LEADERSHIP PHILOSOPHY

                                  The TVA OIG strives to be a high performing organization made up of dedicated
                                  individuals who are empowered, motivated, competent, and committed to
                                  producing high quality work that improves TVA and life in the Valley.

                                  Each of us has important leadership, management, team, and technical roles.
                                  We value integrity, people, open communication, expansion of knowledge and
                                  skills, creative problem solving and collaborative decision-making.




                                                     3
Message from the Inspector General
This semiannual report is unique for us. For the first time in our relatively short history as an
organization, we are taking the opportunity to reflect back over the last 20 years.




                                                   4
In 1988, Congress established by law       their contributions to helping make        In conclusion, this semiannual report
the Office of Inspector General at TVA.    TVA better and clearly answers the         illustrates results today and over the
A fair question is, to what end? If we     questions I pose above.                    last 20 years that show we have paid
were judged on the same basis as                                                      our way and we have helped make
                                           In March of this year, the TVA OIG
private sector business units, how                                                    TVA better. But I would be remiss if I
                                           brought together four of our former
would we stack up? Did we pay our                                                     did not emphasize that much of our
                                           Inspectors General to reflect on their
way? And perhaps the most important                                                   success has been due to the steadfast
                                           years as IG. Bill Willis, the former
consideration, have we helped make                                                    support of the TVA Board and TVA
                                           general manger of TVA, gave us a
TVA better?                                                                           management who understand our
                                           Board level view of the creation of
                                                                                      role and share our beliefs. Particularly,
Some might say there is a natural          the TVA OIG, including the attendant
                                                                                      I extend my heartfelt gratitude to
tendency in government to dismiss          concerns. The combined recollections
                                                                                      the TVA Board and President and
prior administrations as ineffective and   of the former IGs and Bill Willis put
                                                                                      CEO Tom Kilgore for their continued
to discount their achievements, that       into context the historical relationship
                                                                                      efforts to make the relationship
each administration strives to make its    between the TVA Board and the OIG.
                                                                                      between TVA and the OIG work. Their
distinctive mark and to laud its own       Most of the current employees of our
                                                                                      commitment to make TVA a world-
achievements. We owe the American          office had never heard these accounts.
                                                                                      class organization is evident with each
public more. We owe them our best
                                           Our office has gone from agency            passing year.
efforts to learn from the past as we
                                           created to statutorily mandated to
move to the future.
                                           presidentially appointed. The four
Looking at the TVA OIG, I see more         former Inspectors General who came
than any one particular administration.    together helped us understand the
Compartmentalization by Inspector          context of our evolution and the many
General, Board members, or who             lessons learned over the past 20 years.
was sitting in the White House does        They also helped us see different           Richard W. Moore
a disservice to the work of the many       viewpoints and approaches for               Inspector General
fine auditors and investigators who        handling issues that have faced the IG
managed to transcend any such              community from day one, such as how
limitation. The exemplary work done        to balance independence and working
by our people today was made               with management. By learning from
possible in large part by those            the past, we are in a better position to
who went before us. This edition           deal with whatever may happen.
of our semiannual report honors




                                                              5
Executive Summary
The results of our audits, inspections, and investigations from the past six months are
summarized throughout this report. Highlights include the following:

•	This issue includes as a special          through TVA’s corrective action           a strategy for handling the risk of
  feature the celebration of the 20th       program; (4) lack of a corporate          the aging workforce and ensuring
  anniversary of the TVA OIG gaining        REE procedure; (5) inaccurate             knowledge transfer.
  statutory independence under the          environmental data in the Electronic
                                                                                    	 While IT Security has made strides
  Inspector General Act (IG Act) as         Corrective Action Program (eCAP),
                                                                                      in establishing the technology
  amended in 1988.                          Environmental Event Reporting (EER)
                                                                                      infrastructure, we found: (1) IT
                                            system, and REE registry; and
•	Our preaward audits identified                                                      Security lacks a business-level
                                            (6) two instances where TVA did not
  $101 million in potential savings                                                   mechanism to provide cross-agency
                                            externally report events because of
  to TVA through negotiation of                                                       oversight, a strategic TVA-wide
                                            uncertainty about requirements.
  submitted contract cost proposals.                                                  approach, and grounding in risk
                                          •	We performed two organizational           management; (2) coordination and
•	We completed five contract
                                            effectiveness reviews of TVA’s            communication with business units
  compliance audits that identified
                                            Information Services (IS)                 were not well defined and could
  $774,477 in questioned costs,
                                            organization and Information              be more effective with increased
  including $657,540 we determined a
                                            Technology (IT) Security function. In     training, communication, and
  contractor owed TVA for provisional
                                            these reviews, we found:                  business unit involvement in security
  billing adjustments for calendar
                                                                                      planning; (3) procedures were
  years (CYs) 2005 and 2006.              	 The recent restructuring of
                                                                                      outdated and did not address issues
                                            the IS operations area mirrors
•	We found total hospitality                                                          for all business segments; and
                                            leading practices. In addition,
  expenditures, including employee                                                    (4) performance management was
                                            IS’ methodologies and tools for
  recognition expenses, for the period                                                substantially undefined.
                                            conducting IT projects are above
  October 1, 2005, through June 30,
                                            those of its peers. However, our        •	We reviewed the external contractual
  2007, were 64 percent lower than
                                            review showed some areas need             services’ component of River System
  our last audit covering hospitality
                                            improvement, such as: TVA needs           Operations and Environment
  expenses in 2003.
                                            to (1) better integrate IS governance     (RSO&E) Internal/External
•	We reviewed reportable                    with TVA business strategy;               Contractual Services’ program.
  environmental events (REE) at             (2) improve focus on strategic            The program is operated by
  TVA facilities for the two years          business partnering and                   Resource Management (RM). In
  ended September 30, 2006. We              communication with customers;             summary, we found:
  identified (1) noncompliance with         (3) target organization and policy
                                                                                    	 The work being performed is not
  reporting requirements; (2) different     changes, performance measures,
                                                                                      a TVA core business and does not
  interpretations on how some               and service management toward
                                                                                      appear to align directly with TVA’s
  environmental occurrences should be       aiding customers to achieve business
                                                                                      Strategic Plan. Specifically, the work
  classified; (3) environmental issues      goals; (4) consolidate procedures to
                                                                                      does not (1) involve the generation or
  not documented and managed                increase usability; and (5) develop
                                                                                      transmission of electricity, (2) relate




                                                             6
  to environmental stewardship in the     transportation and distribution
  Tennessee Valley, or (3) help bring     services at two coal terminals.
  jobs to the Tennessee Valley through    TVA incurred losses of more than
  capital investment. We concurred in     $6.5 million. The company agreed
  TVA’s decision to eliminate chemical    to pay back three times this
  agent work once current contractual     amount for a total of more than
  commitments expire.                     $19.5 million. The company also
                                          agreed to reimburse other private
•	The largest civil False Claims Act
                                          customers approximately $5 million.
  settlement in the history of the TVA
                                          TVA recovered its actual losses plus
  OIG occurred during this period.
                                          the cost of the investigation from the
  The United States (U.S.) Attorney’s
                                          settlement amount, less a standard
  Office for the Southern District of
                                          administrative fee collected by the
  Illinois negotiated the settlement in
                                          U.S. Department of Justice (DOJ),
  a case we worked jointly with the
                                          for a total monetary recovery of
  Federal Bureau of Investigation
                                          nearly $8 million.
  (FBI). We investigated whether TVA
  was defrauded by three Kinder
  Morgan limited partnerships
  (collectively “Kinder Morgan”) that
  provided coal and other energy




     STATISTICAL HIGHLIGHTS | October 1, 2007 ~ March 31, 2008
Audit Reports Issued                                                         38
Questioned Costs                                                      $774,477
Disallowed Costs                                                     $370,085
Funds Recovered                                                    $3,338,626
Funds to be Put to Better Use                                   $100,990,000
Funds Realized by TVA                                             $53,986,500
Investigations Opened                                                      155
Investigations Closed                                                       121
Fines/Recoveries/Restitution/Savings                              $29,604,937
Indictments/Convictions                                                       7
Disciplinary Actions (No. of Subjects)                                        9
Inspections Completed                                                         8




                                                           7
Office of the Inspector General | Overview


OFFICE RESPONSIBILITIES                 OIG RESPONSIBILITIES                   OIG AUTHORITY
AND AUTHORITY
                                        •	Promote economy and efficiency       •	Conduct any audit, inspection,
Created by the TVA Board of Directors     while preventing and detecting         or investigation the IG deems
(Board) in 1985, the TVA OIG became       fraud, waste, and abuse.               necessary or desirable.
statutory under the IG Act as amended
in 1988. The authority to appoint       •	Conduct and supervise audits,        •	Access all TVA records or
the TVA Inspector General (IG) was        inspections, and investigations        other material.
transferred to the President              relating to TVA programs
                                                                               •	Issue subpoenas and
in November 2000 by                       and operations.
Public Law No. 106-422.                                                          administer oaths.
                                        •	Keep the TVA Board and Congress
                                                                               •	Receive complaints
                                          fully and currently informed
                                                                                 and grant confidentiality.
                                          concerning fraud and other serious
                                          problems, abuses, and deficiencies   •	Have direct and prompt access
                                          relating to TVA programs               to the TVA Board.
                                          and operations.
                                                                               •	Hire employees and contract
                                        •	Recommend corrective actions           for services as necessary.
                                          concerning problems, abuses, and
                                          deficiencies, and report on the
                                          progress made in implementing
                                          such actions.

                                        •	Assure work performed by
                                          nonfederal auditors complies with
                                          Government Auditing Standards.

                                        •	Issue semiannual reports to TVA
                                          Board and Congress.




                                                           8
Office of the Inspector General | Strategic Plan




	             MISSION	        Promote excellence in TVA’s operations through the conduct of investigations,
                              audits, inspections, and advisory services designed to promote economy,
                              efficiency, and effectiveness and prevent and detect fraud, waste, and abuse.

	                VISION	      To be a highly effective organization that promotes positive change by identifying
                              opportunities for improvements in the performance and efficiency of TVA’s
                              programs and operations.

	   GOALS & OBJECTIVES
	            Performance…	 Perform timely reviews that address stakeholder concerns and areas of
                           highest risk
                               •	Focus efforts on areas of highest impact and risk
                               •	Ensure processes are efficient and effective
                               •	Stay abreast of emerging issues and industry trends
                               •	Stay abreast of stakeholder concerns
                               •	Produce work that is timely, relevant, and high quality

	              Workforce…	 Cultivate and retain a highly skilled, productive, and fully
                           engaged workforce
                              •	 Hire and retain a well qualified workforce
                              •	 Maintain competitive pay and award programs that allow for
                               	 rewarding team and individual contributors
                              •	 Develop leadership, team and technical skills of each employee
                              •	 Ensure accountability in individual performance
                              •	 Promote effective communications within OIG	

	             Stakeholder…	 Communicate effectively with stakeholders and deliver services that meet
                            their needs
                              •	Improve stakeholder awareness of OIG
                              •	Ensure stakeholders are kept informed
                              •	Ensure stakeholders have an opportunity to provide input in the annual
                                audit planning process and each individual review, as appropriate


	           CORE VALUES	      • Independence	     • Quality	    • Leadership 	 • Communication
                              • Integrity 	       • Initiative	 • Teamwork 	   • Respect for Individual	
                              • Innovation	       • Results			




                                                 9
Office of the Inspector General | Organization


The OIG’s primary location    ADMINISTRATION AND                        assets), potential impact, sensitivity
                              GOVERNMENT RELATIONS                      (including public and/or congressional
is adjacent to the TVA
                                                                        interest), and likelihood it will result
                              The administrative section works
headquarters in Knoxville,                                              in recommendations for cost savings
                              closely with the IG, Deputy IG, and
Tennessee. To obtain          managers to address the day-to-
                                                                        or process improvements. The result
                                                                        of the OIG audit and inspections
broader coverage throughout   day operations of the OIG and to
                                                                        planning process is a focus on those
                              develop policies and procedures.
the Valley, the OIG also                                                issues of highest impact and risk of
                              Responsibilities include personnel
has Investigations offices    administration, budget and financial
                                                                        fraud, waste, and abuse, and IT issues,
                                                                        including malicious and other system
in Mayfield, Kentucky; in     management, purchasing and
                                                                        intrusions.
                              contract services, facilities,
Chattanooga, Tennessee;
                              communications, conferences,              The AUDITS group, based in
and near the Browns Ferry     and government relations.                 Knoxville, conducts and/or supervises
Nuclear Plant outside                                                   comprehensive financial and
                              AUDITS AND INSPECTIONS
Athens, Alabama; as well                                                performance audits of TVA programs
                              The Audits and Inspections                and operations.
as an Inspections group
                              groups perform a wide variety of
                                                                        It consists of three departments—
located in Chattanooga.       engagements designed to promote
                                                                        Contract Audits, Financial/Operational
The OIG consists of three     positive change and provide assurance
                                                                        Audits, and IT Audits.
                              to TVA stakeholders. Based upon
primary components:                                                     •	Contract Audits has lead
                              the results of the engagements,
(1) Administration and        the Audits and Inspections groups           responsibility for contract compliance
Government Relations,         make recommendations to enhance             and preaward audits. In addition,
                              the effectiveness and efficiency of         this group performs reviews of
(2) Audits and Inspections,                                               TVA contracting processes and
                              TVA’s programs and operations.
and (3) Investigations.       The groups use an impact- and               provides claims assistance and
                              risk-based approach to developing           litigation support.
                              an annual work plan. The groups’
                                                                        •	Financial/Operational Audits has
                              plans consider TVA’s strategic plans,
                                                                          lead responsibility for (1) oversight
                              major management challenges,
                                                                          of TVA’s financial statement audit
                              TVA’s enterprise risk management
                                                                          and related services performed by
                              process, and other input from
                                                                          TVA’s external auditor; (2) reviews
                              TVA management. The planning
                                                                          of TVA’s internal controls related
                              model also evaluates each potential
                                                                          to financial reporting, operational
                              engagement from the standpoint
                                                                          efficiency, and compliance with laws
                              of materiality (i.e., costs or value of




                                                10
  and regulations; and (3) operational       audit. Issues can be generalized into                       contractors, employees, economic
  reviews to assess the results and          specific categories depending on the                        development loan recipients, and
  economy and efficiency of TVA              type of engagement performed.                               others who commit crimes against
  programs.                                                                                              TVA. Investigations maintains liaisons
                                             The graphic below shows some
                                                                                                         with federal and state prosecutors
•	IT Audits has lead responsibility for      representative examples of audit and
                                                                                                         and reports to the DOJ whenever
  audits relating to the security of TVA’s   inspection issues commonly reported.
                                                                                                         the OIG has reason to believe there
  IT infrastructure, application controls,
                                             INVESTIGATIONS                                              has been a violation of federal
  and general controls associated
                                                                                                         criminal law. Investigations works
  with TVA systems. This group also          Investigations conducts and coordinates
                                                                                                         with other investigative agencies and
  performs operational reviews of the        investigative activity related to fraud,
                                                                                                         organizations on special projects and
  effectiveness of IT-related functions.     waste, and abuse in TVA programs and
                                                                                                         assignments, including interagency law
  In addition to its audit mission, IT       operations. The activities investigated
                                                                                                         enforcement task forces on terrorism,
  Audits is responsible for developing       include possible wrongdoing by
                                                                                                         the environment, and health care.
  and supporting an independent OIG
  computer network.

The INSPECTIONS group, based in
Chattanooga, provides assurance              Types of Audit and Inspection Issues
on the effective and efficient
achievement of program objectives                                                                                                      Information
                                                      Contract                                financial
and operational functions. It performs                 Audits                                   Audits                                  Technology
both comprehensive reviews and                                                                                                             Audits
more limited scope policy and
program reviews. In accordance with
                                              •	Inflated Proposals                   •	Internal Control Deficiencies           •	Unauthorized Access
the Quality Standards for Inspections,        •	Contract Overpayments                •	Material Misstatements                  •	Inadequate Controls
the objectives of the Inspections             •	Inferior Performance                 •	Legal Noncompliance                     •	Lack of Data Integrity
group include providing a source of           •	Fraud                                •	Fraud                                   •	Fraud
factual and analytical information,
monitoring compliance, measuring
performance, assessing the efficiency
and effectiveness of operations,                                        operational
                                                                          Audits                                   inspections
and/or conducting inquiries into
allegations of fraud, waste, abuse,
and mismanagement.
                                                                 •	Operational Inefficiency               •	Internal Control Deficiencies
Audit and inspection findings vary                               •	Not Achieving Intended Results         •	Operational Inefficiency
depending on the objectives of the                               •	Inferior Performance                   •	Policy Noncompliance
                                                                 •	Legal/Regulatory                       •	Fraud
                                                                   Noncompliance
                                                                 •	Fraud




                                                                   11
Office of the Inspector General | 2008 Team




                              12
Office of the Inspector General | Organization Chart



                                                       Richard W. Moore
                                                       Inspector General




            Richard P. Levi                                            Ben R. Wagner
            Legal Counsel                                              Deputy Inspector General


Administration and Government Relations

            Ronald Wise                                                Kay Myers
            Assistant Inspector General                                Manager
            Administration and Government Relations                    Human Resources



            Stefanie Hoglund
            Communications Specialist


Investigations

            John E. (Jack) Brennan
            Assistant Inspector General
            Investigations

audits and inspections

            Robert E. Martin                                           David P. Wheeler
            Assistant Inspector General                                Director
            Audits and Inspections                                     Contract Audits


            Gregory C. Jaynes                                          John H. Barrow
            Deputy Assistant Inspector General                         Acting Director
            Inspections                                                Financial and Operational Audits


                                                                       Jill M. Matthews
            Louise B. Beck
                                                                       Director
            Audit Quality Manager
                                                                       Information Technology Audits




                                                      13
Special Feature – 20th Anniversary




                       14
       Former TVA IGs Join with OIG to Celebrate
       20 Years of Statutory Independence


Twenty When four of the five previous IGs met
       on stage Wednesday, March 5, at The
                                                 Zigrossi also noted that he faced
                                                 significant opposition as the first IG.


  Years
       University of Tennessee Conference        George Prosser added, “Norm Zigrossi
       Center in downtown Knoxville, it was      was the right guy to put this together.
       “truly a historic moment,” said current   He lived this thing 24 hours a day,

  of anTVA IG Richard W. Moore.                  seven days a week, and he was fighting
                                                 a lot of people who didn’t want an IG.”


Independent
                     Moore, who hosted the
                     event, said at no time in   According to earlier reports, opinions
                     history had five of the     about establishing an OIG were mixed

   Light             six IGs been together
       in the same room at the same time.
       The event was noticeably missing
                                                 with some saying they thought it was an
                                                 unnecessary expense and others stating
                                                 an IG was the only fair and impartial
       former IG Richard Chambers who was        way to ensure TVA was operating in an
       in Germany on business but sent his       ethical and efficient manner.
       regards through Moore.
                                                 “We needed people to know that we
       The celebration took place to recognize   were for real,” Zigrossi said. “We knew
       the 20th anniversary of the TVA OIG       what we were doing, and we were there
       gaining statutory independence under      to help TVA become a better place.
       the amendments passed in 1988 to          We had to have credibility and high
       the IG Act.                               standards. We had to be fair and to
                                                 provide a service in a timely manner.
       Norm Zigrossi was the first IG at TVA,
                                                 Old facts, old news will never get you
       serving from 1985 to 1992. Zigrossi
                                                 there.”
       explained how the office was formed
       when he became the first TVA Board        William Hinshaw, the second IG,
       appointed IG in 1985.                     who served from 1992 to 1994,
                                                 complimented Zigrossi in saying,
       “People were waiting outside the door
                                                 “I inherited something that Norm’s
       to talk to me,” he said, noting that in
                                                 personal success created. It was his
       the first two months he received 4,000
                                                 success that created a sense
       concerns regarding TVA that people
                                                 of expectation.”
       wanted the IG to address.




       truly a historic moment

                        15
Norm Zigrossi, Bill Hinshaw, George Prosser, Don Hickman




Hinshaw’s period wasn’t without                from anywhere but within, because         the right kind of relationship with
controversy though. Hinshaw                    we had good people who could do           the agency. You have to develop an
explained that there were several              the job, and that’s the thing I’m most    atmosphere of mutual respect.”
Board chairmen in six months and one           proud of.” Prosser introduced Don
                                                                                         Hickman added, “Too often you’re
of them fired him, he quipped.                 Hickman, who was acting IG following
                                                                                         known by your reputation, and it’s not
                                               Chambers’ tenure. “Don was the
One of Hinshaw’s biggest                                                                 always accurate.” He also pointed out
                                               perfect guy for the job,” he said. “Don
accomplishments he believed was                                                          that the TVA OIG should be working
                                               could’ve been an IG several different
investigating TVA’s medical plan                                                         with TVA to prevent waste, fraud, and
                                               places. He just didn’t want to leave.”
administrator which led to an                                                            abuse. “If you wear your prevention
$8.73 million recovery.                        Hickman confirmed he did receive          hat, your caseload will be down
                                               several job inquiries regarding IG        instead of up, and that’s a
Hinshaw’s tenure was followed by
                                               positions in Washington, D.C., but        good thing.”
George Prosser, who served as the IG
                                               he didn’t want them. He credited his
from 1994 to 2000. Prosser noted of                                                      Zigrossi’s parting advice was to, “Let
                                               staff at the time for receiving those
his time as the IG, “I came along at a                                                   the facts speak to the results and you’ll
                                               invitations saying that they made him
time when reinvented government was                                                      never go awry.”
                                               “look good.”
getting some legs. Like many of the
                                                                                         Hinshaw followed with, “This is a good
group here,” he added motioning to             Hickman encouraged the TVA OIG
                                                                                         place to be. I mean if you’re going to
his colleagues, “it’s tough to be an IG        current staff by saying to them, “You
                                                                                         be an IG, this is the best place in the
and be part of the organization.”              all work in a world of dichotomies.
                                                                                         country to do that.”
                                               They tell you to be firm but flexible.
When asked what he was most proud
                                               This can be an easy job if you develop
of, Prosser replied, “I never promoted
                                                                 16
                                           Before there was Tom Kilgore, current President and Chief
                                           Executive Officer of TVA, there was Bill Willis.
                     Bill
                         Willis            A Former TVA Executive’s Perspective
                                           on the Formation of the OIG

Bill Willis was TVA’s General Manager      Willis said eventually Congress              office, but that even Willis’ fears were
in the 1980s, then became Chief            commanded the then three-member              alleviated after Zigrossi took office.
Operating Officer, and finally Senior      TVA Board to create an IG position.
                                                                                        “There was a real fear of the IG
Executive Officer, before he retired       The Board tasked Willis with carrying
                                                                                        coming in and the concern that some
from TVA in 1993. Though the titles        out the machinations to both create the
                                                                                        of the managers had revolved around
changed with different TVA boards,         position and find the right person for
                                                                                        the idea that we had always pushed
the overall function of Willis’ position   the job.
                                                                                        the organization to do new things, to
did not.
                                           Willis said he enlisted the help of his      take some risks, and to be innovative.
As general manager, Willis was in          assistant at the time, John Stewart, and     We were afraid of people pulling back
charge of the day-to-day operations of     they hired a consultant to assist in the     and playing it safe all the time, but
TVA and was the person to whom all         search for TVA’s first IG. That search       after the IG’s office was in place and
TVA employees ultimately reported.         led them to Norm Zigrossi, who was           was working and operating, I think
                                           Special Agent in Charge of the FBI’s         the fear of that fear went away. I think
In the mid 1980s, when the IG’s office
                                           Washington, D.C., field office.              people went back to doing what they
was formed, TVA faced unrelenting
                                                                                        had always done and got back to
scrutiny about its struggling nuclear
                                                                                        proactive business practices.”
program, which had come under
fire because of a prolific number of          TVA was able to get                       Wills continued, “I stayed in touch with
employee complaints. At that time,            it turned around and                      Norm and kept him informed of issues
the nuclear program started reporting         to make it one of the                     and there were no surprises. I had
directly to the TVA Board.                                                              no problems.”
                                              best nuclear programs
Willis remembers those days and               in the country…                           Willis noted that TVA’s nuclear
recalls the climate TVA’s first IG faced                                                program got turned around, as well,
when filling the unprecedented role.                                                    during his tenure. He believes the
                                                                                        problems with the program started
“The problems the nuclear program          “We did a lot of research and
                                                                                        because many of TVA’s experienced
was having is what brought on the          investigating and we felt confident that
                                                                                        nuclear managers left the organization
discussion by Congress that TVA            Norm was the right man to start the
                                                                                        for higher-paying jobs. It wasn’t until
needed added outside oversight,”           Inspector General’s office,” Willis said.
                                                                                        former TVA Board Chairman Marvin
Willis said. “We had to shut down our      “We knew with Norm’s background
                                                                                        Runyon made a plea to Congress
nuclear program because of several         he wasn’t a quitter, and we needed
                                                                                        to restructure salary ranges for key
issues we were having with it. A lot       someone who would stay the course
                                                                                        TVA positions that the organization
of employees were filing reports to        in creating the office in light of all the
                                                                                        was able to employ the best nuclear
the Nuclear Regulatory Commission          opposition he would face.”
                                                                                        talent needed to rebuild the nuclear
(NRC), the Department of Labor
                                           As it turned out, Zigrossi did just that.    program. Willis added, “TVA was able
(DOL), and everywhere else they
                                           Willis explained that because TVA was        to get it turned around and to make
could file them. So, there was a lot of
                                           an organization that for more than 50        it one of the best nuclear programs
discontent. A lot of TVA complaints,
                                           years had limited outside oversight,         in the country, and I am extremely
both internally and externally, were not
                                           naturally there were some deep-rooted        pleased that the program is still
getting resolved.”
                                           concerns about establishing an IG’s          strong to this day.”

                                                               17
  Norman A.
      Zigrossi               TVA’s First IG
                             1985 - 1992



“The OIG is a catalyst       The year was 1985. TVA’s nuclear            Tragedy struck the OIG in May 1990
                             program was receiving an abundance          with the murder of an OIG special
for change within TVA”
                             of attention, but not the kind of           agent in his home. The OIG devoted
              – April 1988   attention anybody would want.               substantial resources to investigating
                                                                         the murder and eventually obtained a
                             Then, TVA General Manager Bill Willis
                                                                         confession from the agent’s wife.
                             recalls, TVA had lost a lot of its talent
                             in the nuclear program to higher-           Also in the early years of Zigrossi’s
                             paying jobs in the mid 80s. It would        tenure, the U.S. Court of Appeals
                             be at least three years before this         for the Sixth Circuit affirmed a
                             trend would start to turn around. In the    district court ruling that OIG agents
                             meantime, TVA’s nuclear program was         conducted themselves lawfully and
                             in obvious decline and reports were         appropriately while investigating
                             being filed with the NRC, the DOL,          alleged drug use by Sequoyah Nuclear
                             and the U.S. Congress, alerting them        Plant employees.
                             to the concerns employees had over
                                                                         In a significant win for 17 TVA
                             the flailing program.
                                                                         employees retiring during this time
                             Because of the number of concerns           period, an OIG investigation into the
                             that were raised to Congress, TVA,          disclosure of confidential information
                             which had only limited oversight for        about upcoming changes in retirement
                             more than 50 years, was tasked with         eligibility and pension computation
                             hiring an IG for the first time ever.       rules that benefitted a senior TVA
                                                                         manager resulted in the changes
                             After an extensive search, FBI veteran
                                                                         being made retroactively to include the
                             Norm Zigrossi was named as the first
                                                                         17 recently retired TVA employees.
                             TVA IG.
                                                                         A review of the TVA OIG’s operations
                             During Zigrossi’s tenure on October
                                                                         determined that the OIG’s operations
                             18, 1988, President Reagan signed
                                                                         compared “favorably with other
                             into legislation Public Law No.
                                                                         Federal OIGs of long standing.”
                             100-504, establishing the TVA OIG
                             and 32 others as statutory IG offices.      Within the OIG, automation became a
                             This law made the OIG responsible for       major event, with every staff member
                             virtually TVA’s entire internal audit and   provided either a personal computer
                             investigative activities.                   or access to a departmental computer.
                                                                         An office automation plan is prepared
                             Murder and drugs aren’t usually
                                                                         to meet both short-term and long-term
                             part of a normal day’s work, but
                                                                         automation goals.
                             these were issues that Zigrossi would
                             have to address under the new
                             statutory authority.


                                                18
Statutory Independence Made A Difference


During this time, a $92 million rate         Beginning in June 1989, the OIG               In October 1989, the OIG provided
increase was avoided because of an           commenced performing preaward                 TVA with a cost analysis of its
OIG finding concerning a change in a         audits, a program that still continues.       arrangement with the U.S. Treasury
TVA accounting policy.                       These audits assist contract admin-           Department (USTD) for short-term
                                             istrators in evaluating proposed TVA          borrowing and checking account
                                             contracts. They aid TVA in negotiating        services, demonstrating that TVA
                                             a lower price for goods or services.          could enhance its internal controls and
                                             They help to ensure contract language         reduce its costs by using a commercial
                                             and/or terms and conditions are clear         bank. TVA subsequently obtained
                                             so that the possibility of costly misinter-   USTD approval to use a commercial
                                             pretation is lessened or avoided.             bank for checking account services,
                                                                                           reducing its costs annually by more
                                             In 1990, the value of this effort was
                                                                                           than $4 million.
                                             demonstrated early on when a single
                                             preaward audit for the nuclear arm of         Most significantly, 1989 was the year
                                             TVA identified $42.5 million that could       that TVA’s Chief Financial Officer
                                             be put to better use.                         (CFO) recognized the OIG’s role as
                                                                                           TVA’s internal auditor.

                                                                                           In 1991, the OIG first implemented
                                                                                           an employee recognition program.
                                                                                           With various refinements and
                                                                                           improvements, this program, which
                                                                                           recognizes the skill, dedication,
                                                                                           and value of OIG employees, is an
                                                                                           important part of the OIG today.

                                                                                           In April 1992, IG Zigrossi ended his
                                                                                           term as IG, resigning to become a
                                                                                           senior TVA manager. Succeeding him,
                                                                                           William L. Hinshaw, II, took office as
                                                                                           TVA IG on May 1, 1992.
Employee Recognition Program Award Winners


1986                             1988                             1990                             1992
   TVA Office of the                Norm Zigrossi, the first          In 1990, the TVA                In 1992, Zigrossi resigns
   Inspector General                TVA Inspector General,            OIG identifies a TVA            as TVA’s first Inspector
   becomes operational in           is the IG when the office         accounting finding that         General and William
   1986 amid controversy            gains statutory status            avoids a $92 million            Hinshaw is named as
   surrounding TVA’s                in 1988.                          rate increase.                  the next IG.
   nuclear program.




                                                                 19
William T.
Hinshaw, II                       TVA’s Second IG
                                  1992 - 1994



     “I have repeatedly           IG Hinshaw immediately saw the             School program included constructing
                                  need for a greater OIG presence            an outdoor classroom at the
     been impressed by
                                  in the Valley as TVA operations and        Environmental Center on Gresham’s
 the dedication and skill         personnel were scattered throughout        campus, hosting an annual chili
                                  the region. So in 1992, he directed        cook-off to raise money, tutoring,
 of the men and women
                                  the opening of satellite offices, first    planning and implementing an
     of this office whose         in Chattanooga, Tennessee, and             incentives achievement program, and
     efforts are directed         Huntsville, Alabama, and then in           coordinating donations of surplus TVA
                                  Memphis, Tennessee, because of             equipment, furniture, and computers.
    toward making TVA             the amount of OIG activity in or
                                                                             Some of the major audits and
             the best utility     near these cities. And because of
                                                                             investigations conducted by the OIG
                                  an increasing number of sexual
     in North America”            harassment complaints, IG Hinshaw
                                                                             during Mr. Hinshaw’s tenure included
                                                                             the following. A combined audit and
                   – April 1993   directed an undertaking by the OIG
                                                                             investigative review in 1992-1993 of
                                  to identify and help eliminate sexual
                                                                             TVA’s medical plan administrator led
                                  harassment in the TVA workplace.
                                                                             to an $8.37 million dollar recovery.
                                  It could be said that IG Hinshaw made      The OIG review showed the
                                  the OIG more mobile. In July 1992,         administrator improperly retained
                                  a team was formed to evaluate the          more than $10 million in discounts it
                                  OIG’s automated data processing            received from medical providers over
                                  equipment, software, and processes.        a 10-year period. This review provided
                                  Phase one of this process came to          a direct benefit to TVA employees
                                  fruition in March 1993 with major          both through improved administration
                                  upgrades and/or replacement of             of TVA’s medical insurance plan,
                                  the OIG’s computer equipment. All          thus helping reduce future costs, and
                                  traveling OIG employees received           through creation of a trust fund to
                                  laptop or notebook computers that          offset future increases in medical costs
                                  could be inserted into docking stations    established from the $8.37 million the
                                  and used with regular sized monitors       administrator refunded to TVA.
                                  and keyboards while in the office, or
                                                                             In 1993, the OIG benchmarked TVA’s
                                  easily transported alone for work in the
                                                                             contractor performance evaluation
                                  field, and the nontraveling employees
                                                                             process to that of other utilities and
                                  received desktop computers.
                                                                             found TVA’s process to be one of the
                                  Hinshaw was obviously interested in        “best in class.” Also in 1993, at the
                                  contributing to the community and          request of the Vice President of Fossil
                                  on June 9, 1992, the OIG joined            Fuels, the OIG audited $13.7 million
                                  TVA’s Adopt-A-School program by            of price adjustment claims totaling
                                  entering a partnership with Gresham        $37.2 million by a company that
                                  Middle School in Knoxville. The            supplied coal to TVA during the period
                                  OIG’s activities in the Adopt-A-           1977 through 1991.

                                                     20
                                                                                   TVA’s Medical Plan
                                                                                   Administrator Review Team

This audit questioned a total of           of Defense (DOD) contract officer
$10.2 million. TVA effectively             had not properly authorized the vast
implemented our recommendations            majority of orders TVA processed,
and settled all outstanding claims by      TVA accepted interagency orders which
paying the company $4 million.             did not meet the stated objectives of
                                           the TBP, and TVA inappropriately used
IG Hinshaw testified before the
                                           cooperative agreements to procure
Subcommittee on Oversight of
                                           goods and services for DOD.
Government Management, Committee
on Governmental Affairs, concerning        On March 31, 1994, IG Hinshaw
the Technology Brokering Program           resigned as the IG. Succeeding him,
(TBP). IG Hinshaw testified regarding      George T. Prosser, became IG on
the OIG findings that the Department       April 1, 1994.


1992                                                                       1993                     1994
   In 1992, IG              Hinshaw opens            Hinshaw starts a        In 1993, an audit         In 1994, Hinshaw
   Hinshaw                  an Inspections unit      partnership with        is completed that         retires as the IG
   expands the              in Chattanooga           Gresham Middle          leads to TVA’s            and George T.
   OIG by opening           to conduct quick         School in Knoxville     recovery of $8.37         Prosser, who had
   satellite offices in     turn-around audits.      as part of TVA’s        million from its          been with the IG’s
   Huntsville, AL,                                   Adopt-A-School          medical plan              office since its
   and in both                                       program.                administrator.            inception, is named
   Memphis and                                                                                         as the next IG.
   Chattanooga, TN.

                                                             21
George T.
      Prosser                  TVA’s Third IG
                               1994 - 2000



             “I am proud IG George T. Prosser had been with                another 400 randomly selected TVA
                               the OIG since its inception. During         and contractor employees, as well as
       to be associated
                               his tenure, where he served for the         reviewed over 100 related and recently
            with so many       two preceding years as Assistant IG         closed files. Again, our findings were
                               for Investigation, Mr. Prosser received     generally positive. That September,
            qualified and
                               the Paul R. Boucher Public Service          our special project team journeyed to
               dedicated       Award from the President’s Council on       Washington, D.C., to brief senior NRC
             employees”        Integrity and Efficiency (PCIE) for his     officials on the results of the review.
                               efforts in detecting abuse in the federal   Then, in 1996, the OIG performed
                – April 2000
                               workers’ compensation program.              a review of the Sequoyah Nuclear
                                                                           Plant’s employee concerns program,
                               In late summer 1994, the OIG com-
                                                                           interviewing more than 340 employees
                               pleted a joint audit and investigation
                                                                           and contractors. Yet again, our
                               of a software contract. The audit was
                                                                           findings were generally positive. These
                               commenced at the behest of TVA man-
                                                                           reviews have continued through the
                               agement because of possible conflicts
                                                                           ensuing years.
                               of interest concerns. OIG auditors
                               determined that during May 1990, TVA        During 1993 and 1994, the
                               paid the contractor $15.6 million in        OIG participated in the “Federal
                               advance for software products to be         Employees’ Compensation Act (FECA)
                               ordered over a five-year period ending      Fraud Deterrence Group,” which
                               May 1995. Contractually, TVA would          was selected to receive the Secretary
                               forfeit the unused portion of the           of Labor’s Exceptional Achievement
                               $15.6 million prepayment when the           Award for 1995. The group played
                               contract expired. The OIG’s work led        a significant role in the enactment
                               to TVA and the contractor resolving         of Public Law 103-329, which bans
                               several issues by the contractor refund-    payment of FECA benefits to claimants
                               ing over $8 million to TVA. Without         who are convicted of defrauding
                               this agreement TVA would have               the program, suspends payment of
                               forfeited the unused portion of the         benefits to incarcerated felons, and
                               software agreement.                         changes the FECA fraud statute from a
                                                                           misdemeanor to a felony.
                               Also, in 1994, the OIG completed a
                               comprehensive Concerns Resolution           In 1997, special agents from the OIG
                               Staff (CRS) program review. The review      became part of a newly formed federal
                               involved over 1,750 interviews. The         and state Environmental Crimes
                               OIG’s findings were generally positive      Joint Task Force (ECJTF). This joining
                               for TVA. Then, in 1995, TVA Nuclear         of forces soon bore fruit with three
                               management asked the OIG to review          convictions in 1998. Two convictions
                               the CRS program at the Watts Bar            fell under the federal Clean Water Act:
                               Nuclear plant due to the NRC’s interest     (1) a conviction of a waste disposal
                               in the program. The OIG interviewed         company for dumping grease waste

                                                  22
                                                                                    Former IG George Prosser
                                                                                    in Discussion


into a manhole; and (2) a conviction of   through the years resulting in many       electric power plant shutdown affecting
a company that transports hazardous       more convictions.                         millions of customers. Our reviews
waste and used oil for discharging                                                  helped to assure the smooth transition
                                          With Y2K approaching, 1997 was the        to the 21st century.
waste into U.S. waters. The third
                                          year the OIG began to review TVA’s
conviction was of a wastewater plant
                                          Year 2000 computer rollover activities,   IG Prosser left his position as IG on
operator for violating Tennessee
                                          the success of which was critical to      August 14, 2000. On September 14,
law by submitting false operating
                                          prevent disruption in the delivery of     2000, the Executive Council on
reports to the Tennessee Department
                                          electric power. Any type of system        Integrity and Efficiency (ECIE) honored
of Environment and Conservation.
                                          failure could have resulted in anything   Mr. Prosser for his outstanding
The work of the ECJTF has continued
                                          from small customer inconvenience to      contribution to the IG community.

1994                            1996                         1997                            2000
   In late summer 1994, the       In 1996, OIG                   With Y2K approaching,          IG Prosser leaves his
   OIG completes a joint          investigators become           the OIG prepares               position in 2000 and
   audit and investigation of     deputized by the U.S.          for computer rollover          is honored by the ECIE
   a software contract that       Marshal.                       activities for the             for his outstanding
   leads to TVA recovering                                       year 2000.                     contribution to the
   more than $8 million.                                                                        IG community.




                                                            23
          Richard F.
          Chambers                              TVA’s Fourth IG
                                                2000 - 2002

                    “We stand ready            tegic objectives were to (1) cultivate     investigations also resulted in six TVA
                                               and retain a highly skilled, innovative,   special agents being recognized by FBI
                         to assist fellow
                                               and motivated workforce; (2) enhance       Director Freeh for their contributions to
                    law enforcement            communications with stakeholders and       these investigations.
                                               deliver services that meet their needs;
                         agencies in any                                                  On November 1, 2000, President
                                               (3) leverage OIG resources to optimize
                           way possible                                                   Clinton signed Public Law 106-422,
                                               productivity and results; (4) focus on
                                                                                          designating the position of TVA
                         during this time      areas of high risk to TVA; and (5) envi-
                                                                                          IG as presidentially appointed. IG
                                               sion change affecting TVA and identify
              [September 11, 2001]             effective solutions.
                                                                                          Chambers retired from federal service
                                                                                          in January 2002, and pursuant to the
                    of national crisis”
                                               IG Chambers also instituted an annual      Federal Vacancies Reform Act, the
                             – October 2001    officewide training symposium and          First Assistant to the IG, G. Donald
                                               established a number of process im-        Hickman, assumed the role of
On August 14, 2000, Richard F.                 provements, including: (1) updating the    Acting IG.
Chambers became the fourth                     employee recognition program,
IG of TVA.                                     (2) implementing automated workpa-
                                               per software, and (3) revising audit
One of IG Chambers first actions was           scoping, background investigation,
to create an IT group. By establishing         and audit report development process-
this group, IG Chambers ensured                es. Mr. Chambers further expanded al-
the independence of OIG computer               ternative work schedules and flex time.
systems. An increase in staff levels           He also adopted an auditor career
occurred for the first time in 13 years.       tract program for entry-level auditors
                                               and created competitive higher-level
IG Chambers then went about imple-
                                               positions in Audits and Investigations.
menting a number of management
initiatives. He implemented an office-         During IG Chambers tenure, the
wide strategic planning process, which         OIG received seven team awards for
led to development of a new strategic          outstanding achievements from the
plan and vision. The new vision was            ECIE. In addition, two task forces on
“to illuminate today’s challenges and          which the OIG participated received
                                                                                              Illuminating today’s challenges
tomorrow’s solutions.” The five stra-          PCIE/ECIE Awards for Excellence. Two           and tomorrow’s solutions




2000                                                                                                        2001
   Richard Chambers           Chambers implements         Chambers initiates        In November                Following the trag-
   takes office as the        a strategic planning        an all-employees          2000, President            edy of September 11,
   next IG in August          process that results in     training symposium        Clinton signs              2001, the OIG
   of 2000. One of            a strategic plan and a      that is still in effect   into law a bill            initiates a number of
   his first actions          new vision for the          today.                    making TVA’s               reviews to validate
   is to create an            office — “to illuminate                               Inspector General          the effectiveness of
   Information                today’s challenges                                    a presidentially-          TVA’s procedures
   Technology team.           and tomorrow’s                                        appointed position.        and controls.
                              solutions.”

                                                                   24
             G. Donald
              Hickman                           TVA’s Acting IG
                                                2002 - 2003

                     “I am extremely            the risks associated with the security      law enforcement skills refresher
                                                of TVA’s nuclear and nonnuclear             training program. In addition, the
                       pleased by the
                                                facilities. The OIG also made a major       OIG began participating on the Joint
                       support I have           commitment to assist TVA management         Terrorism Task Force (JTTF) led by the
                                                in developing a cost-effective plan         FBI’s Knoxville Field Division.
                  received as Acting
                                                to evaluate TVA computer security
                  Inspector General                                                         A considerable amount of legislation
                                                procedures and controls.
                                                                                            had been passed in the preceding
                      from Congress,            On October 1, 2001, the OIG became          three years, requiring federal agencies
                     OIG employees,             a member of the PCIE. It did not take       to review and improve security of its
                                                long for the OIG to win its first PCIE      information, e.g., Federal Information
                      the TVA Board,
                                                award. In 2002, an OIG audit team           Security Management Act (FISMA),
                        and our other           was awarded an Award of Excellence          and to report annually on its action
                                                by the PCIE for the team’s work in the      plans for improvements. The same
                        stakeholders”
                                                area of TVA Long-Term Bulk Power            legislation also requires OIGs to
                               – October 2002   trading. The team produced two highly       independently evaluate and report on
                                                complex reviews of TVA’s weekly,            agency compliance. Members of the
Subsequent to the tragic events of              monthly, seasonal, annual, and multi-       TVA OIG became part of an IT Security
September 11, 2001, a major effort of           year trading in the wholesale electricity   Assessment (ITSA) project team.
the OIG was the initiation of a number          market. The reviews were especially         By March 31, 2003, the team had
of reviews to validate the effectiveness        timely, as several power marketers had      conducted 23 self-assessments and
of TVA’s security procedures and                either filed for or were on the brink       2 vulnerability assessments.
controls. These efforts were concluded          of bankruptcy. In addition, Enron and
                                                                                            On April 22, 2003, President Bush
under the direction of Acting IG                other utilities were facing scrutiny due
                                                                                            announced his intention to nominate
Hickman.                                        to questionable energy trading and
                                                                                            Richard W. Moore, an Assistant U.S.
                                                accounting practices.
The initial effort was a preliminary                                                        Attorney in the Southern District of
survey to assess the adequacy of                The year 2002 saw the passage of the        Alabama, to be the IG of TVA.
TVA’s security plans and actions taken          Homeland Security Act. Section 812 of       Mr. Moore subsequently was confirmed
in response to the terrorist attacks            the Act provided for law enforcement        as the first presidentially appointed IG
and related threats. The OIG found              authority for TVA special agents under      at TVA, effective May 9, 2003, and
that TVA was taking or had taken                guidelines to be issued by the DOJ. To      Mr. Hickman returned to his position
appropriate measures to mitigate                ensure a smooth transition, the OIG         as the Assistant Inspector General
                                                initiated and developed an intensive        of Investigations.

                                    2002
   In October 2001, the                IG Chambers retires              The Homeland Security          IG Hickman establishes
   OIG becomes a member                in 2002 and Donald               Act is passed in 2002 and      performance measures
   of the PCIE and wins its            Hickman is named as the          gives law enforcement          of productivity, timeliness
   first PCIE award in 2002.           Acting Inspector General.        authority to TVA OIG           and results for TVA
                                                                        special agents.                OIG staff. A computer
                                                                                                       forensics lab is also
                                                                                                       established.




                                                                   25
              Richard W.
                      Moore                     TVA’s Fifth IG
                                                2003 - present



                       “TVA has many            One of IG Moore’s first acts was to           Unit 1 at Browns Ferry Nuclear Plant
                                                recreate the Inspections group and            had been shut down since 1985.
                          stakeholders,
                                                place it in Chattanooga so it was             Because of the significance of the work
                         but ultimately         near a number of TVA operational              being undertaken to restart Unit 1,
                                                and operations support units. The             estimated at the time to cost
                              it belongs to
                                                Inspections group provides flexibility        $1.8 billion, the OIG in 2004
                              the people”       to conduct limited scope policy and           redirected resources to Browns Ferry
                               – October 2005   program evaluations to promote                Nuclear Plant to conduct reviews to
                                                economy and efficiency in the                 promote cost control and to detect
                                                management and administration of              and correct instances of waste, fraud,
                                                TVA programs and to conduct inquiries         and abuse. Our efforts had immediate
                                                into allegations of fraud, waste,             results, both audit and investigative.
                                                and abuse.                                    Shortly after we began our reviews,
                                                                                              we determined a contractor providing
                                                TVA OIG special agents received
                                                                                              engineering services at Browns
                                                full law enforcement authority in a
                                                                                              Ferry Nuclear Plant had overbilled
                                                commissioning ceremony on
                                                                                              TVA $602,611 and we found the
                                                January 23, 2004. That ceremony
                                                                                              Consignment Inventory Payment
                                                recognized two milestones in the TVA
                                                                                              controls could be strengthened.
                                                OIG: (1) the receipt of full statutory
                                                law enforcement authority and (2) a
                                                new investigative initiative to identify
                                                and eradicate fraud against and within
                                                TVA. Our efforts in this area include
                                                opening additional satellite offices
                                                and assigning investigators as “road
                                                agents” to serve as key contacts at
                                                specific TVA facilities in order to more
                                                effectively identify cases, become more
                                                familiar with TVA operations, and
                                                establish key business contacts.
                                                                                              IG Moore during plant visit


2003                                2004                                                                2006
  In April 2003, Richard               IG Moore assigns                In an effort to support              IG Moore launches
  Moore is nominated as                investigators as “road          TVA management in                    an outreach program
  the first presidentially-            agents” to serve as             identifying potential                to educate TVA plant
  appointed TVA IG.                    key contacts at specific        risks and mitigation                 employees about the OIG
                                       TVA facilities.                 strategies, the first fraud          and its mission.
                                                                       risk assessment training
                                                                       classes begin in 2004.




                                                                  26
Our investigators, working with the         subsequently developed remediation                 In conjunction with the establishment
U.S. Postal Service, found a Browns         plans for those areas.                             of Empowerline, the OIG instituted a
Ferry Nuclear Plant employee                                                                   reward program. Under the reward
                                            Recognizing the obligation of TVA to
accepting kickbacks in the purchase                                                            program, the disclosure to the OIG of
                                            be accountable to the public, as well
of overpriced janitorial supplies. In                                                          information about criminal or unlawful
                                            as the need for a greater amount of
another case, a contract employee                                                              activities leading to a felony charge,
                                            transparency, the OIG in 2005 began
made about $10,000 of personal                                                                 or a substantial monetary recovery for
                                            placing some audit and inspection
charges on a TVA credit card.                                                                  TVA, may result in a cash reward for
                                            reports on the OIG Web site either in
                                                                                               the individual making the disclosure.
Two investigative initiatives in 2004       full or in summary form.
were: (1) the hiring of a forensic                                                                 Demonstrating his personal
                                            In January 2006, the OIG renamed
analyst along with the development of                                                              commitment to the OIG’s outreach
                                            and contracted out the hotline,
a data mining program; and                                                                         efforts, IG Moore personally kicked
                                            renamed Empowerline, to provide: toll-
(2) conducting throughout TVA fraud                                                                off an initiative to open a dialogue
                                            free 24-hour
risk assessments, i.e., a process for                                                                                               with TVA
                                            coverage,
business process owners to identify                                                                                                 employees.
                                            seven days
and analyze fraud risk factors that                                                                                                 He
                                            a week to
may be common to general business                                                                                                   attended
                                            those calling;
practices and also specific to the                                                                                                  all-hands
                                            anonymity, if           A confidential connection for reporting fraud,
organization and its operations.                                             waste or abuse affecting TVA.                          meetings
                                            desired; and
                                                                   www.OIGempowerline.com                                           at the
With the strong support of TVA              trending data
                                                                              1-877-866-7840                                        Kingston,
management, the initiation of the fraud     to identify
                                                                   EmPowerline™ is sponsored by the Office of the Inspector General John
risk assessment process was instantly       potential                           and operates independently of TVA.
                                                                                                                                    Sevier, and
successful in identifying potential         problem areas
risk areas and mitigation strategies        based on the number and type of calls
                                                                                                   Johnsonville TVA fossil plants. The
for a number of TVA organizations.          received. This outsourced system offers
                                                                                                   all hands meetings provided an
Working collaboratively with TVA            a convenient way, i.e., by a toll-free
                                                                                                   opportunity to discuss the OIG’s role
management, we were able to identify        telephone call or over the Web, for
                                                                                                   and responsibilities and encourage
a number of areas where controls            individuals to report concerns about
                                                                                                   employees to call Empowerline.
could be improved. TVA management           activities adversely impacting TVA.



                                2007
   An effort is led to revamp      IG Moore launches a                  IG Moore initiates the                Largest False Claims
   the OIG hotline to make         “Best Practices” initiative          Higher Performing                     Act civil settlement in OIG
   it operational 24 hours         that receives a PCIE                 Organization model in                 history – $25 million.
   a day, seven days a             award in 2007.                       the OIG and establishes
   week. It is renamed the                                              telework as a long-term
   Empowerline.                                                         initiative designed to drive
                                                                        up performance.



                                                                  27
Other aspects of the outreach program      This program has resulted in improved              contractors. This video was placed
were: (1) designation of Knoxville-        processes and increased office morale,             on our Web page and advertised
based special agents for each TVA          but more importantly, it has enabled               throughout TVA by way of the
plant; (2) assigning agents to Mayfield,   the participating offices to better serve          OIG Connection.
Kentucky; northern Alabama; and            their agencies and add greater value
Chattanooga, Tennessee; and                as a part of the IG community.
(3) introducing new TVA employees
                                           In 2007, the OIG joined the world of
to the OIG through TVA’s orientation
                                           media production. Because so many
program and a personal letter from
                                           people are now media oriented, a
the IG.
                                           decision was made that the best way to
Also in January 2006, we initiated         communicate with TVA employees was
our newsletter, the OIG Connection.        to use the medium from which most
The purpose of the OIG Connection          were used to receiving information.
is to help engender effective              The TVA OIG produced two videos.
communication about the functions,         A video about the OIG was added
findings, actions, and role of the OIG.    to the TVA program introducing new
Eight issues of the OIG Connection         employees to TVA. A second video was
have gone to press and the response        developed as a fraud education tool.
has been positive.                         It shows real-life examples of fraud
                                           cases involving TVA employees and                  OIG Connection – March 2008 Issue
Both the PCIE and the ECIE promote
sharing of best practices through
monthly meetings, journal articles,
and conferences. However, IG Moore’s
discussions with individual IGs
revealed an interest in supplementing
the natural exchanges of best practices
that occur by formalizing a process
that focuses specifically on this
area. This office took the initiative
to establish a protocol for OIGs
who wished to participate in a “best
practices” exchange with other OIGs to
share information, promote innovative      Best Practice Session with U.S. Postal Service
thinking, and encourage improved
practices within the OIG community.

So far, the TVA OIG has participated
in five such exchanges. The result has
been an enthusiastic endorsement by
the offices that have participated.

                                           Fraud Video
                                           Visit our Web site at www.oig.tva.gov for link to video



                                                                 28
Promoting Positive Change
in TVA for 20 Years

The TVA OIG has gone from (1) an office created by the                     During 2003, in connection with the
                                                                           25th anniversary of passage of the
TVA Board in 1985 to (2) a statutory office where the IG                   original IG Act, President Bush in
is appointed by the agency head to (3) a presidentially                    meeting with the IGs said they were
                                                                           “agents of positive change.” TVA OIG
appointed IG office.
                                                                           accomplishments over the past 20
                                                                           years reinforce that message. The
This year, we are celebrating our      the IG is appointed by the agency   OIG has conducted independent and
20th anniversary since becoming        head. Although the TVA OIG          objective reviews of TVA programs
statutory. In 1988, S. 908 passed      previously had been operating       and operations across the board. TVA
the Senate by a vote of 85 to 0 and    generally in conformance with       management has used our findings to
became Public Law No. 100-504,         the IG Act, it now was authorized   help them achieve significant financial
establishing the TVA OIG and 32        and required by statute to do so.   savings and recoveries and to develop
others as statutory IG offices where                                       and implement process improvements.




                                                        29
Promoting Operational Excellence


                                              The great Northeast-Midwest       reliable power that helps
                                              blackout of August 2003 and       businesses and families
                                              the South Florida blackout        prosper”; (2) environmental
                                              of 2008 are reminders that        stewardship; and (3) economic
                                              electricity is a key component    development. The electric
                                              of our daily lives. While         utility marketplace has
                                              utilities across the U.S.         experienced significant
                                              face increased competition        changes in 20 years, thus
                                              and grapple with strategic        prompting TVA to periodically
                                              direction decisions regarding     assess and adjust its strategic
                                              cost, reliability, and service,   plans, organizational
                                              TVA’s mission is much             objectives, organizational
                                              broader and includes:             structures, and workforce
                                              (1) “providing affordable,        composition.




 New Yorkers on the Brooklyn Bridge exiting
  New York City during the Blackout of 2003

                                                              30
OIG Audits was also reorganized               •	TVA’s Medical Plan – Identified          •	TVA’s Ethics and Compliance
several times throughout the 20-year            over $16 million in overcharges and        Program – Recommended a
history to better align with TVA, meet          interest incurred by TVA that resulted     more comprehensive ethics and
customer needs, and identify and                in a settlement of over $8 million;        compliance program that would
prioritize audits/inspections of activities                                                result in a more organized corporate
essential to TVA’s mission and goals.         •	TVA’s Polychlorinated Biphenyls
                                                                                           approach to ethics and compliance
While the organizational structure and          (PCBs) Elimination Strategy –
                                                                                           and tone at the top issues;
many of the auditors have changed,              Highlighted the need for a more
operational/performance reviews                 concentrated effort to reduce the        •	Hospitality and
completed by the OIG have continued             amount of equipment containing             Credit Card Use – Tested in
to impact both corporate and                    PCBs which poses a risk to human           numerous reviews policy compliance
operational business units throughout           health and the environment;                and reasonableness of TVA’s
TVA. Operational/performance                                                               credit card usage and hospitality
reviews have contributed to TVA’s             •	TVA Risk Management –
                                                                                           expenditures; and
efforts to (1) reduce the cost of power,        Recommended TVA develop a
(2) improve operational performance,            more robust enterprise-wide risk         •	Coal Procurement and
(3) fulfill its environmental stewardship       program with other suggested risk          Inventory Management – Tested
mission, and (4) achieve economic               management improvements;                   in numerous reviews coal vendor
development. To ensure that                                                                compliance with contract billing
operational/performance audit                 •	TVA’s Role as a Regulator –
                                                                                           and delivery terms, in addition
resources were directed to key audit            Highlighted the inherent conflict
                                                                                           to reviews of the overall coal
areas, the OIG assessed TVA’s                   in TVA serving as a regulator
                                                                                           management programs.
challenges, considered management’s             while working to ensure good
audit/inspection requests, and                  customer relations;
developed a yearly, risk-based,
                                              •	TVA Nuclear Concerns
operational audit plan. These reviews
during the past 20 years have included          Resolution Program – Assessed
activities and programs such as:                in numerous reviews Nuclear Power
                                                employees willingness to raise safety
•	Nuclear Power Employee                        or quality concerns;
  Qualifications – Identified
                                              •	TVA’s Economic Development
  employees working in the Nuclear
                                                Program – Assessed in numerous
  Power Program with questionable
                                                reviews compliance and efficiency
  qualifications or who provided false
                                                issues in TVA’s economic
  information;
                                                development programs;
•	TVA’s Technology Brokering
  Program – Identified serious
  program issues that resulted in
  Congressional hearings;




                                                                31
Promoting Integrity in Financial Reporting


OIG’s financial-related audits           and business processes over the              with the restructure of the TVA Board
                                         years that have helped TVA                   and the establishment of the Audit
over the years have had
                                         management make improvements                 and Ethics Committee, the role of
significant impact on TVA.               to those systems, processes, and             the OIG in TVA financial reporting
                                         related controls. In many cases, the         further expanded as it began holding
The single most significant
                                         OIG’s recommendations from these             quarterly meetings with this committee
financial audit was of TVA’s             audits resulted in monetary savings,         and providing additional assurance to
Fiscal Year (FY) 1987 energy             and in many other cases, the audits          members regarding the independence
                                         affirmed that TVA’s systems,                 of the external auditor and the quality
sales that resulted in a                 processes, and related controls              of the auditor’s work.
$92 million increase in TVA’s            were functioning properly.
                                                                                      Internal Control Over Financial
revenue and recognition                  TVA’s Financial Statements – The             Reporting – In 2005, the OIG’s
of unbilled electricity sales.           IG’s role in TVA’s annual financial          role in TVA financial reporting again
                                         statement audit has increased                expanded through its support of TVA’s
Other financial audits with a            dramatically over the past 20 years.         initiatives to comply with Section 404
large dollar impact included:            In its early years, the OIG typically        of the Sarbanes-Oxley Act of 2002
                                         audited certain elements of TVA’s            (SOX). The OIG has provided support
                                         balance sheet and income statement           for TVA’s SOX initiatives since 2005,
•	FY 1989 audit of payroll costs,
                                         to facilitate the audit of TVA’s financial   and in that time, has performed about
  which led to savings of more
                                         statements by an external auditor. In        150 reviews and provided objective
  than $3 million.                       later years, however, the OIG became         feedback on TVA financial reporting
•	FY 1991 audit of air travel costs,     more involved in assuring the external       control design and documentation, as
                                         audit complied with applicable               well as control operation effectiveness.
  which saved approximately
                                         standards. In 2003, the OIG                  In addition, the OIG has facilitated
  $1 million.
                                         began providing technical contract           fraud risk assessments with TVA
•	FY 1992 audit of TVA’s accounting      management and funding for the               management covering a broad range
  for pension costs, which resulted      financial statement audit to assure the      of financial reporting processes. The
  in a $42 million reduction in costs.   external auditor remained independent        OIG continues to coordinate with TVA
                                         of TVA operations and management,            management to support its compliance
•	FY 2001 audit of TVA’s nuclear         both in fact and appearance. In 2005,        with SOX.
  decommissioning fund, which
  prompted a change in the
  investment strategy estimated to
  improve future fund performance
  by approximately $20 million,
  and another audit conducted in
  that year, which resulted in TVA
  cancelling plans for $8 million
  in charitable contributions.

The OIG has also performed
numerous other financial-related
audits of TVA’s accounting systems       Financial and Operational Audits Team



                                                             32
Responding to Key Stakeholders


Congressional requests from                 whether certain industrial customers       to lease the Highland Ridge towers
members of the Valley Congressional         were properly billed during the            in Nashville and questioned some of
delegation during the past 20 years         summer of 1998 when a volatile             the expenditures; and
have focused on accountability for          power supply situation existed;          •	Agency Management Practices –
costs and rates and justifications for    •	Selected Power Rate and Cost               Congressman Zach Wamp request-
certain TVA business decisions. Billing     Issues – Senator Mitch McConnell           ed numerous reviews of TVA man-
rate programs, agency management            requested an audit of TVA’s rates          agement practices including: (1) ex-
practices, and certain significant          and charges to determine how TVA’s         ecutive compensation, (2) spending
expenditures as shown below are             programs and expenses were passed          on special events, (3) TVA advertise-
illustrative of the work we have            on to distributors and direct-served       ment programs, (4) use of consulting
performed at the request or suggestion      customers;                                 contracts, (5) property leases and
of Congress.                              •	TVA’s Office Space and Vacancy             purchases, (6) use of TVA airplane,
•	Economy Surplus Power                     Rates and the Highland Ridge               and (7) decisions to relocate person-
   Program – Congressman Bob                Tower – Senator Jeff Sessions              nel to Nashville.
   Clement requested an assessment of       requested a review of TVA’s decision


Promoting Cost Reduction
Over the last 20 years, the OIG             $659 million. Although TVA did             450 compliance audits that identified
has performed over 800 preaward,            not eventually award contracts             $158 million of questioned costs
compliance, and contract claim audits       to some of the companies whose             and $32 million of funds to be put to
that collectively identified almost         proposals we reviewed, for those           better use. Although management
$880 million of questioned costs and        contracts which were awarded, TVA          action is outstanding on some of the
funds to be put to better use.              management was able to use our             audits, TVA has been able to thus
•	Preaward audits are based on TVA          audit results to negotiate contract        far successfully recover or avoid over
  management requests for audit             terms that helped it avoid                 $75 million in costs.
  assistance either prior to award of       $404 million in costs.
                                                                                     •	Claims and Litigation Support –
  a contract or prior to extension of     •	Compliance audits are reviews of           Over the past 20 years, we
  a contract. Our audit objectives          costs billed to TVA by contractors         supported TVA management’s
  are generally to determine if a           or subcontractors to determine             assessment of claims and litigation
  contractor’s cost proposal is fairly      if the costs were in accordance            filed by contractors. We performed
  stated. TVA management is able            with contractual provisions. We            over 35 audits and provided
  to use the information obtained           select contracts for audit that have       litigation support on various
  in our audits to have a better            high potential for waste, fraud,           occasions to TVA’s Office of the
  understanding of the contractor’s         and abuse due to issues such as            General Counsel. Our audits
  cost structure and to negotiate           contract size and complexity, past         identified $28 million of ineligible
  cost provisions that are more fairly      history of problems with particular        and unsupported costs which TVA
  stated. Since April 1988, we have         contractors, recurring issues within a     management was able to use to
  performed over 330 preaward               particular contract type, and limited      negotiate better settlements
  audits that collectively identified       management oversight. Over the             with the contractors.
  savings opportunities of about            past 20 years, we performed

                                                            33
IT Reviews Grow in Importance


The evolution of IT uses within the agency, as well as other                    IS and outside consultants to identify
                                                                                (1) critical risks and the current status
companies, over the past 20 years has been significant.                         of IT security for critical TVA systems
This evolution has brought considerable efficiencies as well                    and (2) steps necessary to protect TVA
                                                                                systems from cyber-attack. This project
as risk to TVA. As technology has evolved, so has the demand
                                                                                encompassed over 20 self-assessments
for resources and the skill sets required to audit IT.                          and 10 security vulnerability reviews,
                                                                                including penetration tests for a cross
                                                                                section of TVA assets and facilities
The OIG now devotes an entire           plans for improvements. One
                                                                                (e.g., nuclear, transmission, fossil,
audit department to IT-related          example is FISMA which also
                                                                                hydro, data centers). As a result of
reviews and strongly supports           requires OIGs to independently
                                                                                this project, TVA initiated actions
training needed to stay current on      evaluate and report on agency
                                                                                to strengthen its security practices.
where the risks lie. To address risks   compliance.
                                                                                Since this project, the OIG has
across federal agencies, several
                                                                                continued to perform security reviews,
pieces of legislation have been         About six years ago, TVA launched       program reviews, penetration tests,
passed in recent years, requiring       a series of initiatives to upgrade      pre-implementation reviews of new
federal agencies to review and          its security infrastructure. The OIG    systems, and legislatively mandated
improve security of its information     participated on this project with TVA   reviews.
and report annually on its action




IT Audits Team




                                                          34
Preventing and Detecting Fraud, Waste, and Abuse


The major focus of investigations has       Investigations has produced major results for TVA over the past 20 years
                                            as shown by the following numbers.
shifted significantly over the past
20 years. During the early years, the        CASELOAD
OIG devoted substantial investigative              Cases Closed                                                        6,024
resources to administrative
investigations. For example, during          INVESTIGATIVE RESULTS
                                                    Recoveries                                         	      $ 82,412,820
FY 1990, we issued 212 investigative
reports to TVA management. Our                         Fines/Penalties                                 	      $ 1,770,988
investigations included employee
                                                       Savings                                         	      $88,335,232
misconduct, personnel matters, vehicle
operations, and harassment. While            MANAGEMENT ACTIONS
we also pursued criminal cases and                Disciplinary Actions (# Subjects)                                    1,012
obtained 13 convictions that year, TVA
needed our independent investigative         PROSECUTIVE ACTIVITIES
arm to look into misconduct cases.                 Convictions                                                          278

As time has progressed, however, we
have shifted away from misconduct
                                              they are unemployed. Our savings                  submitting false claims for labor
to focus more on major fraud. We
now have significantly fewer agents           to TVA have totaled over $75 million              hours and per diem; and several
than in our early years, and we focus         during the past 20 years in this area.            convictions of contractor employees
those resources on cases that we think                                                          for falsely claiming entitlement to
                                            •	Numerous investigations related to
likely will bring a bigger return to TVA.                                                       per diem and the recovery of over
                                              the procurement of coal have led
Examples of major impacts over the                                                              $3.5 million.
                                              to both convictions and substantial
past 20 years include the following.
                                              monetary recoveries for TVA.                   •	Our theft and credit card
•	We have obtained numerous                   These investigations have included               investigations also have contributed
  convictions of loan recipients for          overstated weights, theft, and                   to the bottom line at TVA. For
  either providing false information          product substitution. A $25 million              example, our investigation of
  to TVA to obtain a loan or diverting        recovery in a coal case is featured in           the theft of tools by contractor
  the funds for personal use. One             this semiannual.                                 employees resulted in five
  recent economic development case                                                             convictions and the recovery of over
                                            •	Investigations of contracts in other
  involving a $500,000 loan                                                                    $1 million. Another investigation
                                              areas also have produced
  is awaiting trial.                                                                           resulted in a conviction and
                                              significant results. They include
                                                                                               recovery of over $.5 million where
•	Our workers’ compensation                   an $8 million recovery from the
                                                                                               a contractor employee used a TVA
  investigations have helped TVA              administrator of a TVA benefit plan;
                                                                                               VISA card to obtain supplies, falsified
  control the costs of that program.          an $8 million credit from a company
                                                                                               records to show TVA received the
  We investigate both false claims of         that received an improper advanced
                                                                                               supplies, and stored the supplies in
  a work-related injury and instances         payment from TVA; conviction of a
                                                                                               private warehouses.
  where individuals who are working           contractor’s Chief Operating Officer
  while receiving benefits falsely report     and payment of $1.6 million for




                                                                 35
20-Year Cumulative Audit
and Related Project Highlights


Over the 20-year period ended March 31, 2008, the OIG completed 1,832 audits and related
projects and made 3,321 recommendations to TVA management. We questioned approximately
$319 million in costs and recommended approximately $982 million be put to better use. As a
result of this work, TVA recovered over $113 million and put over $642 million to better use.



                                                                                        AUDITS & OTHER PROJECTS | April 1, 1988 – March 31, 2008
                                                                 AUDITS COMPLETED                                                                                                                                                                1,394
                                                                 AUDIT RESULTS (Millions)
                                                                                       Questioned Costs                                                                                                                                          $319
                                                                                       Disallowed by TVA                                                                                                                                          135
                                                                                       Recovered by TVA                                                                                                                                           114
                                                                                       Funds to be Put to Better Use                                                                                                                             $982
                                                                                       Agreed to by TVA                                                                                                                                           707
                                                                                       Realized by TVA                                                                                                                                            643
                                                                 OTHER AUDIT-RELATED PROJECTS                                                             1


                                                                                       Completed                                                                                                                                                  438
                                                                                       Cost Savings Identified/Realized (Millions)                                                                                                               $ 69




                                                                                   CUMULATIVE QUESTIONED COSTS                                                                   CUMULATIVE FUNDS FOR BETTER USE
                                                                                         April 1, 1988 to March 31, 2008                                                                       April 1, 1988 to March 31, 2008

                                                                                       $350                                                                                                  $1,200
                                                                                                                                    $318,977,981
                                                                                       $300                              $279,327,362                                                        $1,000                                          $981,886,251

                                                                                                            $258,908,795
                                                                                                                                                              Funds for Better Use




                                                                                       $250                                                                                                  $ 800                                $822,909,176
                                                           Questioned Costs




                                                                                                                                                   2008                                                                                                     2008
                                                                          (millions)




                                                                                                                                                                                (millions)




                                                                                              $220,517, 082
                                                                                                                                                   2003                                                                                                     2003
                                                                                       $200                                                                                                  $ 600                  $582,077,247
                                                                                                                                                   1998                                               $508,027,437                                          1998
                                                                                       $150                                                        1993                                      $ 400                                                          1993

                                                                                       $100                                                                                                  $ 200

                                                                                       $ 0                                                                                                   $ 0
                                                                                                     1993         1998          2003       2008                                                              1993          1998          2003       2008




1
    Includes the number of Inspections completed during the period and any associated cost savings identified or realized.




                                                                                                                   36
An Award Winning IG’s Office


Each year, the PCIE and the ECIE present awards for
outstanding achievements within the IG community.
These awards are a testament to a job well done.


The PCIE consists of presidentially appointed IGs, while the
ECIE is comprised of IGs appointed by the agency head.
The TVA OIG was an ECIE member until October 1, 2001,
when the IG position became a presidential appointment and
the OIG, accordingly, became a member of the PCIE. PCIE/
ECIE awards received by OIG employees over the past several
years are as follows.


2000 ECIE AWARDS                        The OIG’s Workers’ Compensation                 Environmental Crimes
                                        Team, composed of Special Agents                Joint Task Force
George T. Prosser, IG
                                        James E. Hunter and Craig A. Yates,             for outstanding work in fighting
for outstanding contributions
                                        and Financial Investigations                    environmental crimes from July 1,
to the IG community.
                                        Manager James M. Reed                           1999, to June 30, 2000.
G. Donald Hickman,                      for their achievements in identifying
Assistant Inspector General,            and eliminating fraud in TVA’s
Investigations                          workers’ compensation program.
for his leadership and sustained
contributions to the law
enforcement community.

Special Agent James F. Farr
and Senior Auditor Jerry D. Stover
for outstanding teamwork and efforts
in a complex audit/investigation
of fraud related to TVA’s Tool
Management Program.

Senior Special Agent
Michael G. Duncan
and Senior Auditor Harriet A. Miller
for their work in resolving a complex
product substitution case.              Award for Excellence – Investigating Environmental Crime Award recipient Joe Boehr standing
                                        between former IGs Prosser and Chambers




                                                             37
                                                          Award for Excellence – Investigations Award recipients Elizabeth Sherrod
                                                          and Bill McBee with former IG Chambers



2001 ECIE AWARDS                            Office Space Team for their                   The East Tennessee Health Care
                                            outstanding contributions toward              Fraud Team for outstanding teamwork
Clean Air Compliance Program Team
                                            improving TVA’s decision-making               in a multi-agency effort to investigate
for their contribution to TVA’s Clean Air
                                            processes related to property and             and prosecute health care fraud by
Compliance Program.
                                            office facilities.                            a medical provider in the Federal
Significant Review and Analysis                                                           Judicial District of Eastern Tennessee.
                                            Investigation Regarding a Senior
Conducted at the Request of Congress
                                            Manager’s Misconduct Team                     2002 PCIE AWARDS
Team for their work in conducting a
                                            for working together to develop,
congressionally-requested review and                                                      Long-Term Bulk Power Trading Team
                                            analyze, and report complex findings
analysis of power rate and cost issues.                                                   for producing two highly complex
                                            regarding significant misconduct by a
                                            senior manager.                               reviews of TVA’s weekly, monthly,
                                                                                          seasonal, annual, and multi-year
                                                                                          trading in the wholesale
                                                                                          electricity market.




                                                              38
2005 PCIE AWARD: SOX Review Team




2006 PCIE AWARD: Fraud Risk Assessment Team                          2006 PCIE AWARD: Contract Audits Team




2005 PCIE Award                               2006 PCIE AWARDS                             2007 PCIE AWARD

SOX Review Team for performing                Fraud Risk Assessment Team for               Ron Wise, Assistant IG for
process-control reviews to assist             developing and implementing an               Administration and Government
TVA management in evaluating the              action plan to perform fraud risk            Relations, for the initiation of best
design and operating effectiveness of         assessments, an innovative and               practices sharing sessions with
financial reporting controls.                 valuable tool to prevent and detect          other OIG’s.
                                              waste, fraud, and abuse.

                                              Contract Audits Team for using
                                              proactive and innovative best practices
                                              to consistently identify significant
                                              cost savings, recoveries, and process
                                              improvements for TVA.




                                                                39
38
Audits
               Summary of
               Representative Audits


During this reporting period,           included (1) overstated indirect cost         for payroll taxes and insurance
                                        recovery rates, (2) unsupported               resulting in a $25,331 overbilling
we completed 38 audits which
                                        insurance recovery rates, (3) excessive       to TVA.
identified over $774 thousand           craft labor cost markups, (4) excessive
                                                                                    2.	T VA paid $192,039 in additional
                                        markups of direct equipment costs,
in questioned costs and                                                                costs by moving the field
                                        (5) potentially duplicate fee payments,
approximately $101 million in           and (6) unsupported cost escalations.          engineering services from the
                                        TVA management used the results                subcontractor’s existing direct
funds which could be put to
                                        of our findings to negotiate better            contract with TVA to a subcontract.
better use. We also identified          contract terms.                                Although Procurement stated
several opportunities for TVA                                                          TVA had made the right business
                                        CONTRACT COMPLIANCE AUDITS                     decision to move the field
to improve program opera-               IDENTIFY OVER $774 THOUSAND
                                                                                       engineering work to a subcontract,
                                        IN QUESTIONED COSTS
tions. Our audits included                                                             we suggested TVA, in the future,
(1) pre- and post-award                 During this semiannual period, we              consider the impact on TVA’s final
                                        completed five contract compliance             costs before shifting work being
contract audits, (2) financial-         audits that identified $774,477 in             performed by contractors to a
related audits, (3) operational         questioned costs. In addition, we              subcontract.
                                        provided (1) assistance on various
audits, and (4) IT audits. We                                                       3.	The contractor billed TVA
                                        contractor-related OIG investigations,
also completed six other audit-         (2) support to TVA’s Office of the             $225,676 for payments made
                                        General Counsel for pending litigation         to the subcontractor for the
related projects.
                                        with a TVA contractor, and (3) advice          services of a senior modifications
                                        to TVA Procurement regarding various           and maintenance manager.
Contract Audits                         planned contracts. Highlights of our           Although Procurement stated the
                                        completed compliance audits follow.            subcontractor’s executive was hired
PREAWARD CONTRACT AUDITS
IDENTIFY $101 MILLION                                                                  because the contractor had been
                                        •	We audited $5.2 million in costs
OF POTENTIAL SAVINGS                                                                   unable to provide an appropriate
OPPORTUNITIES                             billed to TVA by a contractor for
                                                                                       senior manager to address craft
                                          subcontract services provided on
To support TVA management in                                                           productivity issues, we advised
                                          the Browns Ferry Nuclear Unit 1
negotiating procurement actions, we                                                    Procurement the subcontractor’s
                                          recovery project. Under its
completed six preaward audits of cost                                                  executive essentially provided
                                          agreement with the prime contractor,
proposals submitted by companies                                                       augmentation for the contractor’s
                                          the subcontractor provided (1) field
proposing to provide (1) engineering,                                                  senior management, a cost
                                          engineers for the Browns Ferry
procurement, and construction (EPC)                                                    normally covered by the
                                          Nuclear Unit 1 project and (2) the
services for the completion of Watts                                                   contractor’s overhead.
Bar Nuclear Unit 2, and (2) EPC           services of a senior modifications
                                          and maintenance manager. In             •	We audited $324,000 of costs
services for gas-fired generating
facilities. Our audits identified         summary, our audit found:                 billed to TVA by a contractor for
$101 million in potential savings                                                   volunteer services using TVA retirees
                                          1.	The subcontractor miscalculated
opportunities for TVA to negotiate.                                                 and found TVA was overbilled
                                             provisional billing adjustments
Some of our more significant findings                                               $63,755, including (1) $44,855
                                                          40
  for unsupported costs, and (2) an
  estimated $18,900 for ineligible                                 “I am proud of the work performed by our
  travel expenses. TVA management                                  auditors in contract audits.  As a result of the
  subsequently took action to recover
                                                                   work of the contract audit staff, TVA was able
  these costs.
                                                                   to save millions of dollars under contracts it
•	We determined a contractor owed                                  awarded during this semiannual period.”
  TVA $657,540 for provisional billing
                                                                   –David P. Wheeler, Director, Contract Audits
  adjustments for CYs 2005 and
  2006. The contractor understated
  the amount it owed TVA by                  transfer the administrative function      •	With some exceptions, Procurement’s
  $267,040 due to various errors in its      of the project to the contractor. TVA       contract managers and purchasing
  reconciliations of previously billed       management and the contractor               agents retained appropriate
  and incurred costs. The contractor         agreed with the recommendation.             documentation in the contract files.
  agreed with our findings and                                                         To help TVA ensure it is receiving
                                           TVA’S CONTRACT AWARD PROCESS
  subsequently provided credits to         HAS OPPORTUNITIES FOR                       adequate competition, we
  TVA for the overbilled amount.           IMPROVEMENT                                 recommended TVA Procurement
                                                                                       (1) require management approval for
•	Our audit of $5.9 million of costs       Our review of TVA’s contract award
                                                                                       all contracts greater than $25,000
  billed to TVA by a contractor that       process found opportunities for TVA
                                                                                       in which only one bid is received,
  conducted various projects and           to improve its award process by
                                                                                       (2) reinforce compliance with TVA’s
  programs from April 1999 through         ensuring adequate competition is
                                                                                       requirement that only Procurement
  September 2007 found the costs           received and reinforcing compliance
                                                                                       personnel are authorized to obtain
  were fairly stated and in agree-         with Procurement policies. Specifically,
                                                                                       proposals from potential suppliers,
  ment with the terms of the contract.     our review of 40 contracts awarded by
                                                                                       and (3) provide clear guidance as
                                           Procurement during FY 2006 found:
  However, about 20 percent of the                                                     to the contract file documentation
  payments TVA made to the contrac-        •	Insufficient competition existed in       requirements. In addition, we
  tor were related to a specific project     the award of seven of the contracts,      suggested Procurement consider
  where TVA was the administrator of         because only one bid had been             the benefits of creating a position
  funds collected from various federal                                                 of Competition Advocate, a position
                                             received and evaluated;
  agencies then disbursed to the con-                                                  specifically required for other federal
                                           •	Technical Contract Managers               agencies.
  tractor. Since the benefits received
                                             contacted vendors and received
  by TVA were negligible, given the                                                    TVA Management is reviewing our
                                             pricing quotes prior to Procurement’s
  costs of administering the funds for                                                 recommendations to decide what
                                             involvement in five of the contract
  the project, we recommended TVA                                                      actions should be taken to improve
                                             awards; and                               the contract award process.




                                                             41
financial and                                TVA’S HOSPITALITY EXPENSES                      •	Actual inputs for the nine TVA-wide
                                             REDUCED BY 64 PERCENT                             metrics agreed with the underlying
operational Audits
                                             We reviewed hospitality expenses                  support provided by the Strategic
During this semiannual                       incurred by TVA for the period                    Business Units, except for the
                                             October 1, 2005, through                          calculation of the Delivered Cost
period, we completed                                                                           of Power (DCOP) metric, which
                                             June 30, 2007, to (1) determine
17 audits, including one                     the type and level of expenditures;               was inconsistent with the Board-
                                             (2) assess compliance with policies               approved formula. This resulted
financial-related audit, four
                                             and procedures; and (3) identify                  in a one cent overstatement of the
operational audits, and testing              changes in hospitality policies since             calculated DCOP, further resulting
of financial reporting controls              our last hospitality audit. We found              in a .25 percent increase in the TVA
                                             total hospitality expenditures, including         Scorecard percentage. Management
for 12 business processes                    employee recognition expenses,
                                                                                               agreed and made the appropriate
to assist with TVA’s initiative              averaged about $2.3 million per year
                                                                                               correction during the engagement.
                                             during the period, representing a
to comply with Section 404
                                             64 percent reduction from FY 2003               •	Also, in applying the procedures,
of SOX. Highlights of these                  spending. For the period reviewed,                we noted the Fuel Cost Adjustment
                                             TVA generally complied with policies              (FCA) metric improperly included
projects follow.
                                             and procedures, except as related to              Browns Ferry Nuclear precommercial
                                             obtaining preapproval of hospitality              costs. The FCA metric approved
FY 2007 FINANCIAL STATEMENT                  expenditures. In response to our
AUDIT COMPLIED WITH                                                                            by the Board did not include
                                             report, management took corrective
STANDARDS                                                                                      these costs. Including these costs
                                             action regarding preapproval of
                                                                                               in the FCA metric resulted in an
TVA contracted with the independent          hospitality expenditures.
                                                                                               8.25 percent overstatement in the
certified public accounting firm of
                                             OIG REVIEWS 2007 WINNING                          TVA Scorecard percentage. After
PricewaterhouseCoopers LLP (PwC)
                                             PERFORMANCE PAYOUTS                               discussion with management, these
to audit TVA’s balance sheets as of
September 30, 2007, and 2006 and                                                               costs were removed from the FCA
                                             We performed agreed-upon
the related statements of income,                                                              metric and subsequently included in
                                             procedures, requested solely to assist
changes in proprietary capital, and          management in determining the                     the DCOP metric. A revised payout
cash flows for each of the three years       validity of the Winning Performance               report was provided for retesting.
in the period ended September 30,            payout awards for the FY ending                   We noted during retesting, the
2007. The contract required the audit        September 30, 2007. In summary,                   precommercial costs were properly
be done in accordance with generally         we found:                                         excluded from the FCA metric and
accepted government auditing                                                                   included in the DCOP metric. We
standards. Our review disclosed no           •	The FY 2007 Winning Performance
                                                                                               further noted Allowance for Funds
instances where PwC did not comply,            goals were properly approved.
                                                                                               Used During Construction was
in all material respects, with generally
                                             •	Actual year-to-date inputs for the              added to the DCOP metric.
accepted government auditing
                                               sampled metrics agreed with the
standards.                                                                                   The payout percentages were
                                               respective basis worksheet.                   recalculated by management and
                                                                                             verified by the OIG, based on
                        “Daily engagement in analytical decision-                            the changes to the DCOP metric
                                                                                             noted above.
                        making with highly trained professionals is
                        more intellectually stimulating than I had                           NEW EXECUTIVE ORIENTATION
                        expected; there is nothing mundane about                             PROGRAM IMPROVED

                        directing OIG resources.”                                            We assessed the effectiveness of TVA’s
                        –John H. Barrow, Acting Director, Financial and Operational Audits   orientation for executives hired since
                                                                                             our last review in 2005. In summary,


                                                                  42
we found TVA’s Human Resources                         the Electronic Corrective Action Pro-                    periodic briefing of management
personnel had:                                         gram (eCAP), Environmental Event Re-                     and executives on the status of
                                                       porting (EER) system, and REE registry;                  environmental occurrences and
•	Developed a guide for executives to                  and (6) two instances where TVA did                      environmental audits.
  address issues unique to TVA.                        not externally report events because of
                                                       uncertainty about requirements.                          SOX TESTING IDENTIFIES
•	Provided guidance to newly-                                                                                   IMPROVEMENT AREAS
  hired executives on areas of high                    We recommended TVA Environmental
  sensitivity.                                         Stewardship and Policy (1) clarify the                   In support of TVA initiatives to comply
                                                       environmental occurrences required to                    with SOX, we completed 12 projects
•	Provided periodic guidance as                                                                                 to test or retest financial reporting
                                                       be classified as environmental events,
  needed in various areas.                                                                                      controls in 12 of about 68 key
                                                       (2) develop a corporate REE procedure,
                                                       (3) clarify the environmental                            business processes determined to be
•	Provided orientation itineraries to
                                                       occurrences required to be managed                       in scope for SOX compliance. These
  four of the 15 new executives we
                                                       through the corrective action process,                   projects were designed to provide
  interviewed.
                                                       and (4) review environmental data                        the Vice President and Controller
In addition, we found according to                     in the eCAP, EER system, and REE                         with information for TVA to assess
TVA training records, 91 percent of                    registry for accuracy, correct identified                its internal control over financial
newly hired executives attended TVA’s                  errors, and identify a method to                         reporting as of September 30,
standardized orientation process                       prevent future environmental database                    2008. Our findings included needed
called the New Employee Experience,                    errors. We further recommended                           improvements in control design,
as opposed to 67 percent during our                    TVA’s Environmental Executive work                       inadequate documentation retained to
last review.                                           with other TVA executives to promote                     demonstrate the control operated in
                                                       a culture of transparent reporting                       the period tested, and other necessary
We also provided the Chief                                                                                      documentation-related improvements.
                                                       throughout TVA organizations. This
Administrative Officer with the
                                                       could include a periodic briefing
suggestions by the 15 executives we
                                                       of management or executives on
interviewed as to how to improve the
                                                       the status of REEs, environmental
orientation program.
                                                       events, Notices of Violation, and
CONTROLS OVER REPORTABLE                               Environmental Management
ENVIRONMENTAL EVENTS AT TVA                            System findings.
FACILITIES NEED IMPROVEMENT
                                                       Management agreed with our
We reviewed REE2 at TVA facilities
                                                       recommendations and opened
for the two years ended September 30,
                                                       three Problem Evaluation Reports
2006. The purpose of our review was
                                                       (PERs) to address the findings. The
to determine whether controls provide
                                                       PERs will address (1) identified
reasonable assurance that REE are
                                                       problems regarding classification
identified, reported, and resolved in
                                                       of environmental occurrences,
accordance with applicable laws,
                                                       documentation of occurrences,
regulations, and TVA policies. We
                                                       decision-making with regard to
identified (1) noncompliance with
                                                       classification, use of eCAP to manage
reporting requirements; (2) different
                                                       environmental occurrences, and a
interpretations on how some environ-
                                                       lack of procedural guidance for REEs;
mental occurrences should be
                                                       (2) identified errors in the database(s)
classified; (3) environmental issues not
                                                       used to capture information on
documented and managed through
                                                       environmental occurrences; and
TVA’s corrective action program;
                                                       (3) the lack of suitable mechanisms                     Windmills at TVA’s wind power generating site
(4) lack of a corporate REE procedure;
                                                       for transparent reporting and                           on Buffalo Mountain near Oak Ridge
(5) inaccurate environmental data in

	A reportable environmental event is an occurrence that violates regulatory requirements and triggers a notification to, or enforcement action by,
2

 a regulatory agency.


                                                                                43
IT Audits                                    to (1) better integrate IS governance       OTHER IT-RELATED REVIEWS
                                             with TVA business strategy;
                                                                                         We performed three other reviews
During this semiannual                       (2) improve focus on strategic
                                                                                         pertaining to (1) security controls
                                             business partnering and
period, we completed five                                                                for a critical system, (2) risk
                                             communication with customers;               assessment performed on personally
audits in the IT environment                 (3) target organization and policy          identifiable information, and (3) pre-
and performed four reviews                   changes, performance measures,              implementation of a new system. In
                                             and service management toward               these reviews, we noted:
in support of TVA’s efforts
                                             aiding customers to achieve business
to comply with certain                       goals; (4) consolidate procedures to        •	A critical system contained
                                                                                           weaknesses in control
provisions of Section 404                    increase usability; and (5) develop
                                             a strategy for handling the risk of           documentation; participation
of SOX. Highlights of these                                                                agreement language; logical and
                                             the aging workforce and ensuring
audits follow.                               knowledge transfer.                           physical controls designed to prevent
                                                                                           unauthorized access to system
                                           •	While IT Security has made strides            programs, data, and facilities;
IT SOX TESTING IDENTIFIES
                                             in establishing the technology                and general controls designed to
OPPORTUNITIES FOR
IMPROVEMENT                                  infrastructure, we found: (1) IT              ensure ongoing operations. TVA
                                             Security lacks a business-level               management generally agreed with
During the first half of the semiannual      mechanism to provide cross-agency             the recommendations and is in the
period, we completed readiness testing
                                             oversight, a strategic TVA-wide               process of implementing corrective
of controls for three applications and
                                             approach, and grounding in risk               actions.
one IT general control area, which
                                             management; (2) coordination and
were initiated at the end of FY 2007.                                                    •	The risk assessment methodology
                                             communication with business units
Overall, we noted opportunities                                                            used by TVA was consistent with
to improve SOX documentation,                were not well defined and could
                                             be more effective with increased              National Institute of Standards and
operating effectiveness of controls, and
                                             training, communication, and                  Technology and the U.S. Office of
areas where control gaps existed. TVA
                                             business unit involvement in security         Management and Budget guidance,
management has taken or is in the
                                             planning; (3) procedures were                 and corresponding conclusions
process of taking action to remediate
issues noted in these reviews.               outdated and did not address issues           reached regarding risk to personally
                                             for all business segments; and                identifiable information were
IMPROVEMENTS NEEDED TO                                                                     reasonable.
                                             (4) performance management was
INCREASE EFFECTIVENESS OF IS
ORGANIZATION AND IT SECURITY                 substantially undefined.                    •	TVA security plans and procedures
FUNCTION                                                                                   and plans for application testing and
                                           TVA management generally agreed
                                           with our findings and is in the process         data loading are expected to provide
We performed two organizational
effectiveness reviews of TVA’s             of implementing corrective actions.             adequate control over security,
IS organization and IT Security                                                            testing, and data reliability for the
function. Both IS and IT Security have                                                     new system.
undertaken restructuring efforts. In
these reviews, we found:

•	The recent restructuring of                                      “Technology and the associated risks are
  the IS operations area mirrors                                   continually changing. To be successful in this
  leading practices. In addition,                                  environment requires strong skills, commitment
  IS’ methodologies and tools for                                  to continuous learning, and a passion for the
  conducting IT projects are above
                                                                   work…that’s what the IT Audits group brings to
  those of its peers. However, our
                                                                   each project.”
  review showed some areas need
                                                                   – Jill M. Matthews, Director, IT Audits
  improvement, such as: TVA needs
                                                             44
     8
Inspections
                     Summary of
                     Representative Inspections


Inspections may be initiated            (2) costs associated with TVA                •	The work being performed increases
                                        employees working for outside entities/        TVA’s monetary, reputational, and
from various sources including
                                        agencies were adequately recovered.            environmental risks. RM stated,
(1) annual project planning,            In summary, we found:                          however, that they continue to
(2) management requests,                                                               improve the risk profile for the
                                        •	The majority of FY 2006 RM External
                                                                                       RM External Contractual Services’
(3) audit/investigative                   Contractual Services’ revenue was
                                                                                       efforts through completion of
                                          generated from work for other
referrals, and (4) spin-off               federal agencies, and the projects
                                                                                       high-risk projects, through their
                                                                                       strategy on the nature of future
reviews resulting from an                 we selected for review appeared
                                                                                       work, and through actions and
                                          to be in compliance with the
ongoing inspection. During                                                             processes to mitigate financial risks,
                                          Economy Act of 1932, as amended
this semiannual period, we                                                             including purchasing insurance and
                                          (31 USC 1535). In addition, direct
                                                                                       incorporating written indemnity
completed eight inspections.              costs and approved overheads are
                                                                                       clauses in certain contracts.
                                          captured on a project-specific basis
We also identified various                                                           •	For five of the 14 projects reviewed,
                                          and automatically billed to ensure
opportunities for TVA to improve          cost recovery.                               a contract could not be provided.
                                                                                       In addition, key decisions required
program operations. Highlights          •	The work being performed is not
                                                                                       by RM policies and procedures were
of our inspections follow.                a TVA core business and does not
                                                                                       not documented, or documentation
                                          appear to align directly with TVA’s
                                                                                       was incomplete.
                                          Strategic Plan. Specifically, the work
RESOURCE MANAGEMENT
EXTERNAL CONTRACTUAL SERVICES             does not (1) involve the generation or     We agreed with management’s
                                          transmission of electricity, (2) relate    planned actions to: (1) eliminate
River System Operations and               to environmental stewardship in the        chemical agent work once current
Environment (RSO&E) Internal/External     Tennessee Valley, or (3) help bring        contractual commitments expire and
Contractual Services’ program,            jobs to the Tennessee Valley through       (2) direct RM officials to maintain
operated by Resource Management           capital investment. RM stated the          adequate supporting documentation
(RM), provides services/technologies      work is consistent with the spirit and     of projects and decisions made in
to TVA and external customers.            historical enablement of the TVA           regard to RSO&E policy, including
RM is responsible for (1) business        Act and is implicitly included in and      maintaining contracts and proof of
development, including bid and                                                       funding or Military Interdepartmental
                                          serves as an enabler for many parts
proposal preparation; (2) product
                                          of TVA’s new Strategic Plan.               Purchase Requests.
development activities; and
(3) business coordination of external
projects and operations. Our                                    “I am thankful to have the opportunity to work
inspection covered the external                                 with my Inspections co-workers who are both
contractual services work being                                 talented and committed to helping TVA achieve
conducted by RM. Our objectives were                            its performance and financial goals.”
to determine if (1) work performed by
                                                                – Gregory C. Jaynes, Deputy Assistant Inspector General, Inspections
RM was in accordance with applicable
policies and procedures and


                                                           45
TVA CONTRACTOR PURCHASING
CARD USAGE

We performed an inspection to
determine whether TVA purchasing
cards issued to contractors were used
for a valid business purpose and in
compliance with TVA VISA Purchasing
Card Procedures. Purchasing cards
are provided to TVA organizations for
purchases of small-dollar materials
and services when it is determined to
be the best procurement vehicle for
purchases, as a general rule, up to
$5,000. In addition to issuing purchas-
ing cards to TVA employees, TVA has
also issued purchasing cards in the
                                          over the use of TVA contractor             for identifying, monitoring, and
names of TVA contractor employees.
                                          purchasing cards could be improved.        correcting inspection deficiencies
We reviewed the use of TVA contractor     TVA management generally                   based on the five dams we reviewed.
purchasing cards from March 28,           agreed with our findings and
2004, to March 28, 2007. For this         recommendations and has taken or          •	Information databases provided
period, we identified 21 contractors      plans to take corrective action.            adequate support to manage the
who incurred 35,605 TVA purchasing                                                    inspection process.
card transactions totaling about          TVA’S DAM SAFETY PROGRAM
                                                                                    While we found the dam inspection
$16.7 million. This included six
                                          We performed an inspection to             process met FEMA guidelines and dam
contractors whose purchases each
                                          determine whether the TVA dam             safety personnel corrected inspection
totaled more than $1 million for the
                                          safety inspection process met federal     deficiencies for the five dams we
period. A review of documentation
                                          guidelines, was followed by Dam           reviewed, we identified a control
supporting selected transactions found
                                          Safety inspection personnel, and          improvement opportunity. Specifically,
instances of noncompliance with
                                          was adequately supported by an            (1) 57 out of 81 work orders/requests
TVA’s policy and procedures.
                                          information database. Under the           related to maintenance and repair
Specifically, we found:
                                          TVA Act of 1933, as amended, TVA          (M&R) items identified by the dam
•	Purchases that were, by policy,         is authorized to construct, operate,      safety inspections for the five dams
  disallowed (e.g., computer              and maintain dams in the Tennessee        we reviewed were not completed by
                                          River basin. According to the National    the estimated due date stated on the
  equipment, computer software, fuel,
                                          Inventory of Dams, TVA’s dam              inspection report, and (2) there is
  rental of heavy equipment, and
                                          inventory in 2007 included 49 main        a historical trend of not completing
  rental of vehicles).
                                          dams and 33 dikes and saddle dams.        M&R items by the estimated due date.
•	Transactions where it appeared the      In keeping with its responsibility, TVA   TVA management stated that findings
  total charge was split to stay below    has maintained a dam safety program       affecting personnel safety and items
  the $5,000 transaction limit and        since its inception. In summary, our      considered dam safety emergency
                                          review determined:                        repairs are corrected immediately.
  avoid obtaining additional approval.
                                                                                    M&R items are routine activities
•	Transactions with no detailed receipt   •	The inspection process met the          required to keep the dam safety
  showing the description and quantity      Federal Emergency Management            equipment in acceptable condition
  of items purchased.                       Agency (FEMA) guidelines for            and are identified during dam safety
                                            periodic dam safety inspection          inspections. TVA management agreed
•	Transactions with no receipt.             programs.                               with our finding and recommendation
•	Transactions with illegible receipts.                                             and has implemented a prioritization
                                          •	Dam Safety inspection personnel
                                                                                    and scheduling procedure to enhance
We also noted areas where controls          appeared to adhere to the process       timely completion of M&R items.

                                                            46
                                                                                  contractor was required to (1) maintain
                                                                                  a Participating Pharmacy Network to
                                                                                  provide retail pharmacy services, (2)
                                                                                  provide base administrative services
                                                                                  including processing and adjudicating
                                                                                  TVA’s prescription drug claims in
                                                                                  accordance with TVA’s plan design,
                                                                                  (3) issue checks to participating
                                                                                  pharmacies and/or claimants on
                                                                                  TVA’s behalf, and (4) implement
                                                                                  and administer health management
                                                                                  programs. As part of our annual
                                                                                  inspection plan, we reviewed the costs
                                                                                  billed and formulary rebates credited
                                                                                  to TVA by the contractor. Specifically,
                                                                                  our inspection covered:
TVA COAL SUPPLIER CONTRACTS               information provided to TVA regarding
                                                                                  •	Claims payments by TVA to
                                          tons shipped and coal-quality test
We conducted three inspections to                                                   the contractor for the period
                                          results. Each supplier was also found
determine whether selected coal                                                     December 22, 2001, through
                                          to be in general compliance with the
suppliers were in compliance with                                                   December 30, 2005.
                                          weighing, sampling, and shipping
weighing, sampling, and shipping
                                          provisions in the contract and/or
provisions of each respective contract.                                           •	Base administrative fee payments
                                          applicable standards. However, we
We performed tests to verify that                                                   made by TVA to the contractor for
                                          also identified control improvement
shipment weight and coal test                                                       the period January 5, 2002, through
                                          opportunities related to TVA’s
results documentation maintained at                                                 December 5, 2003. There were no
                                          weighing and sampling of coal. TVA
each mine supported the amounts                                                     base administrative fee payments for
                                          management generally agreed with
used to (1) invoice TVA for tonnage                                                 CYs 2004 and 2005.
                                          our findings and recommendations
shipped and (2) calculate coal-
                                          and has taken or plans to take
quality adjustments. We also used                                                 •	Formulary rebates credited to TVA
                                          corrective action.
a consultant to assist in compliance                                                for claims adjudicated and billed
testing of weighing, sampling, and        TVA PRESCRIPTION DRUG                     from January 1, 2002, through
shipping contract provisions and/or       PROGRAM                                   December 31, 2005.
applicable standards.
                                          TVA entered into a contract with a      We found the contractor had generally
In summary, our reviews found             vendor to provide a fully integrated    billed costs in accordance with the
documentation maintained at the           prescription drug program that          contract terms and TVA plan provisions
respective mine for ten randomly          included both retail and mail order     with the exception of certain Consumer
selected shipments agreed with the        prescription drug services. The         Directed Health Plan (CDHP) claims. In
                                                                                  addition, formulary rebates allocated
                                                                                  to TVA exceeded the minimum
                                                                                  guaranteed rebate amounts, when
                                                                                  applicable, and nothing came to our
                                                                                  attention during the limited testing of
                                                                                  formulary rebates that would indicate
                                                                                  TVA rebates were not determined in
                                                                                  accordance with contract terms. TVA
                                                                                  management generally agreed with
                                                                                  our findings and recommendations
                                                                                  and has taken or plans to take
                                                                                  corrective action to resolve the issues
Audits and Inspections                                                            identified regarding CDHP claims.

                                                            47
    121
Investigations
                          Summary of
                          Representative Investigations


During the past six months,                settlement in the OIG’s history in a      claimed the “excess” coal, therefore,
                                           case we worked jointly with the FBI.      belonged to it and it had the right
we closed 121 investigations.
                                           We investigated whether TVA was           to sell the coal and keep the profit.
These investigations were                  defrauded by three Kinder Morgan          The company took the differential
                                           limited partnerships (collectively        (unshipped customer coal or excess
based on allegations
                                           “Kinder Morgan”) that provided coal       coal) and sold it as “Red Lightning”
received from a wide                       and other energy transportation           coal. At the Grand Rivers Terminal –
variety of sources, including              and distribution services at two coal     where certified scales were used for
                                           terminals. Kinder Morgan contracted       both incoming and outgoing coal –
TVA employees, former                      with TVA and other private companies      our investigation showed Kinder
employees, ratepayers,                     to handle and transport coal at the       Morgan simply took coal from the
                                           Cora and Grand River Terminals in,        customer stockpiles.
concerned citizens, other
                                           respectively, Illinois and Kentucky.
agencies, and OIG Audits.                                                            Using this scheme, Kinder Morgan
                                           TVA ordered large quantities of coal
                                                                                     took and sold approximately 258,725
                                           produced in the western U.S. The coal
Highlights, as summarized below,                                                     tons of coal attributable to TVA, which
                                           was shipped by rail to the terminals
include: the largest civil False                                                     amounted to a loss for TVA of over
                                           where it was offloaded, stored, and
Claims Act settlement in this office’s                                               $6.5 million. The company agreed
                                           eventually loaded onto barges for
history; the first payment under our                                                 to pay back three times this amount
                                           delivery to TVA. On occasion, the
Reward Program; sentencing of a                                                      for a total of over $19.5 million. The
                                           coal was directly transferred from
TVA employee who failed to report                                                    company also agreed to reimburse
                                           rail to barge, but more often the coal
receipt of over $50,000 at the                                                       other private customers in the amount
                                           was placed in customer stockpiles
direction of a TVA contractor; two                                                   of about $5 million. TVA recovered
                                           to be later shipped out by barge.
cases where individuals filed false                                                  its actual losses plus the cost of the
                                           Our investigation showed Kinder
workers’ compensation claims; and                                                    investigation from the settlement
                                           Morgan took coal from TVA and other
environmental convictions in task                                                    amount, less a standard administrative
                                           customer stockpiles and sold it under
force cases. In addition, we have                                                    fee collected by the DOJ, for a total
                                           the name “Red Lightning” from
programs underway to identify and                                                    of nearly $8 million. This is the largest
                                           1997 through 2001.
prevent misuse of TVA credit cards,                                                  civil False Claims Act settlement in the
including data mining and joint            Our investigation found coal was          history of the TVA OIG.
investigations with the TVA Police on      weighed by certified scales when it was
theft investigations. We also conducted    loaded onto a train to be shipped to      FIRST REWARD GIVEN TO TIPSTER
several investigations of alleged          the terminals. However, that same coal
                                                                                     A tip led to the investigation of two
employee misconduct and kept track         when shipped from the Cora Terminal
                                                                                     coal terminals used by TVA, which in
of management’s response to matters        to the customer was weighed by barge
                                                                                     turn led to the largest settlement in
that came through the hotline as well      draft. The barge draft method usually
                                                                                     a civil False Claims Act case in this
as other referrals.                        weighed two to three percent heavier
                                                                                     office’s history, as discussed above.
                                           than the certified scales, resulting
                                                                                     The complainant reported a concern
LARGEST CIVIL SETTLEMENT IN OIG            in less coal being shipped from the
HISTORY - $25 MILLION                                                                based on his/her belief that something
                                           terminal than received. The company
                                                                                     was “not right.” Although the specific
The U.S. Attorney’s Office for the         exploited this weighing differential
                                                                                     allegation was not substantiated,
Southern District of Illinois negotiated   to show that it shipped out the same
                                                                                     the tip led to an investigation that
the largest civil False Claims Act case    amount of coal as it had received. It
                                                             48
uncovered the practice that led to          WORKERS’ COMPENSATION INVESTIGATIONS HELP TVA SAVE MONEY
the civil settlement. In recognition of
the complainant’s efforts, the OIG          During this reporting period, we               workers’ compensation are entitled
presented that person – who chose to        closed two investigations that                 to those benefits, there is a significant
keep their identity confidential – with a   showed individuals submitted false             minority who are not.
cash reward.                                workers’ compensation claims.
                                                                                           The Office of Workers’ Compensation
                                            In both cases, TVA suspected the
                                                                                           Programs (OWCP) administers
CONTRACT INVESTIGATIONS                     claims were false, referred them
PRODUCE RESULTS                                                                            FECA. Because FECA is intended to
                                            to the OIG for investigation, and
                                                                                           provide wage-replacement benefits
                                            successfully controverted the claims.
We continued our focus on contract                                                         to employees who cannot physically
                                            TVA’s long-term avoided costs due to
fraud during this reporting period. In                                                     continue working, OWCP requires
                                            management successfully contesting
addition to the False Claims Act case                                                      recipients to submit reports of earnings
                                            these claims are projected to exceed
discussed above, our investigative                                                         from employment or self-employment.
                                            $1.78 million; our investigations
results included sentencing of a TVA                                                       OWCP uses those reports to assist in
                                            confirmed the workers’ claims
employee who accepted over $50,000                                                         determining whether an individual has
                                            were false.
at the direction of a TVA contractor                                                       a continuing entitlement. While our
and a process improvement by which          Pursuant to the FECA, TVA and                  workers’ compensation investigations
TVA would recover abandoned coal.           other civilian federal employees               generally focus on an individual’s lying
                                            receive compensation benefits for              about employment, we also look at
TVA Employee Sentenced—As we
                                            work-related injuries. TVA pays all            other areas, such as claiming an injury
previously reported, a former manager
                                            the workers’ compensation charges              occurred on the job when in fact it
at the Browns Ferry Nuclear Plant,
                                            for TVA employees. While the vast              occurred elsewhere.
John L. Symonds, pled guilty on
                                            majority of people who receive
August 3, 2007, to a felony charge
of making a false statement on his
2002 financial disclosure report. Mr.
                                                 POTENTIAL COSTS OF WORKERS’ COMPENSATION PROGRAM FRAUD
Symonds failed to disclose that he had
received over $54,000 at the direction      	 Fiscal	Investigations
of a TVA contractor. On December 18,        	Year	Completed	Convictions	Recoveries	 Avoided Cost	Total
2007, Mr. Symonds was fined $5,000
                                            	      2005	        12	           1	         $168,779	    $1,090,528	 $1,259,307
and sentenced to 2 years’ probation
and 150 hours of community service.
                                            	      2006	        13	           2	          544,265	      1,801,426	    2,345,691
Abandoned-Coal Investigation—
                                            	      2007	        14	           1	           69,763	        627,359	       697,122
We investigated the amount of coal
being left in barges after it was
“unloaded” at a TVA fossil plant.           	TOTALS:	           39	           4	         $782,807	    $3,519,313	 $4,302,120
Information provided by the barge
company showed that from                        At the end of FY 2007, there were          For example, a married 40-year-old
August 1, 2006, through July 31, 2007,          about 1,757 individuals on TVA’s           employee with a $50,000 salary
TVA abandoned over 10,000 tons of               long-term rolls, and TVA paid about        who is injured on the job would
coal per month. Based on the average            $58 million in claims for that year        receive $37,500 tax-free annually,
cost per ton, including transportation          alone. Individuals on the long-            or an estimated $1.5 million over
costs, we estimated TVA lost over               term roll who have one or more             his/her lifetime, plus cost-of-living
$6 million annually. Management                 dependents receive 75 percent of           adjustments.
advised they would review the cost              their salary while those who have
effectiveness of using a contractor to                                                     The chart above illustrates the long-
                                                no dependents receive 67 percent.
clean out barges at the fossil plant                                                       term cost savings to TVA from our
                                                They receive these benefits, plus
and they would issue an early request                                                      workers’ compensation investigations
                                                cost-of-living increases, tax-free for
for proposals to attempt to negotiate                                                      over the past three years.
                                                life; there is no reduction once an
language to provide for dedicated               individual reaches retirement age.
barges or clean out services.

                                                                 49
RESULTS DURING THIS                        Task Force, and the Tennessee Drug         testing did not reveal the presence of
REPORTING PERIOD                           Diversion Task Force. Results from         E. coli in the plant’s wastewater.)
                                           the ECJTF -- which includes the TVA        Mr. Perkins was sentenced to
We concluded two investigations where
                                           OIG, Environmental Protection Agency       community service and two years’
the evidence showed the employees
                                           (EPA) OIG, EPA Criminal Investigations     probation.
submitted a false claim for workers’
                                           Division, U.S. Fish and Wildlife
compensation benefits, as follows.                                                    TVA Acts to Fix Duct Leaks But
                                           Service, Tennessee Department of
                                                                                      Does Not Report Them—In a joint
•	On February 14, 2008, in federal         Environment and Conservation,
                                                                                      investigation with the EPA Criminal
  court, a former laborer at a TVA         Tennessee Attorney General’s Office,
                                                                                      Investigations Division, we found
  fossil plant pled guilty to making a     DOJ – Environmental Crimes Section,
                                                                                      that installation of a Selective
                                           and the U.S. Attorney’s Office for the
  false statement in connection with                                                  Catalytic Reduction system led to
                                           Eastern District of Tennessee -- include
  a claim for workers’ compensation                                                   deterioration in the flue gas ductwork
                                           the following.
  benefits. TVA had challenged the                                                    at a fossil plant. The deterioration
  claim, which OWCP denied, resulting      Company Pleads Guilty to Clean             caused extensive leaks that became
  in a projected cost savings of roughly   Water Act Violations—Archer                progressively worse. In spite of the
  $847,957. TVA also terminated the        Daniels Midland Company (ADM)              extent of the leaks, it appeared
  employee. During our investigation,      pled guilty in federal court to charges    TVA gave little, if any, consideration
  that individual acknowledged that        it negligently violated the Clean          to reporting them to regulatory
  in fact he had hurt himself while        Water Act at its Southern Cellulose        authorities. While TVA patched
                                           Plant in Chattanooga, Tennessee.           the leaks as they occurred and
  changing a tire off-duty, not at work.
                                           ADM pled guilty to allowing                eventually replaced large sections
•	A truck driver in Transportation         contaminated process water to enter        of the ductwork, we recommended
  Services submitted a claim for           the Chattanooga Creek, a tributary of      management consult with the TVA
  workers’ compensation based              the Tennessee River, on four occasions     Ethics and Compliance Officer to
  on an alleged work-related back          between October 16, 2003, and              incorporate ethics and compliance
  injury. TVA also challenged that         September 25, 2004. Under the terms        considerations into daily operations at
  claim, and OWCP denied it. Our           of the Plea Agreement, ADM will pay        the fossil plants.
                                           a $100,000 fine and $50,000 to the
  investigation found the employee
                                           Tennessee Department of Environment        REVIEW OF CREDIT CARD
  submitted a false claim, and TVA                                                    EXPENDITURES PROTECTS TVA
                                           and Conservation, $25,000 to
  accepted the employee’s resignation                                                 RESOURCES
                                           Chattanooga, and $25,000 to the
  in lieu of termination. Although the
                                           Southern Environmental Enforcement         We use data mining to review
  U.S. Attorney declined prosecution,      Network. ADM also made changes             expenditures on Wright Express fuel
  management’s actions resulted in a       to plant management and spent              cards, Visa Gold cards, purchasing
  projected total cost avoidance           more than $350,000 to upgrade the          cards, convenience checks, and Travel
  of $933,175.                             Southern Cellulose Plant to avoid          cards. We have identified numerous
                                           future violations.                         red flags we look for, and we then
ACTIVE INVOLVEMENT IN MULTI-
AGENCY TASK FORCES LEADS                                                              follow up with the employee and,
                                           Individual Pleads Guilty to
TO RESULTS                                                                            as appropriate, his/her manager
                                           Falsifying Reports—Paul William
                                                                                      to verify the expenditure. We have
We recognize the importance of             Perkins pled guilty to one count of
                                                                                      identified several instances of misuse
sharing investigative resources            violating the Clean Water Act by
                                                                                      of the Travel cards and are reviewing
and information with other federal         falsifying monthly operating and
                                                                                      numerous other expenditures.
agencies and task forces to focus          discharge monitoring reports at a
enhanced law enforcement resources         Rockwood Sewage Treatment Plant.           Also during this period, two contractor
by applying the most effective criminal    Those reports showed the wastewater        employees at a TVA nuclear plant were
and civil statutes against individuals     being dumped into Black Creek had          indicted in state court for theft of TVA
and companies who violate the law.         been tested for E. coli and other          property. They allegedly used a TVA
During this reporting period, we           bacteria, although the discharge was       purchasing card to obtain property for
provided investigative resources to the    not tested because the analyzing           their personal use.
ECJTF, the JTTF, the Health Care Fraud     mechanism was inoperable. (Later

                                                             50
MANAGEMENT RESPONDS                       know why the noose would offend           then entered by administrative or
TO EMPLOYEE MISCONDUCT                    anyone. Management suspended the          supervisory staff.
FINDINGS                                  employee for four weeks.
                                                                                    MANAGEMENT RESPONDS TO OIG
We also issued several reports during     Allegation of Leave Abuse Leads           REFERRALS
this reporting period on employee         to Control Improvements—We
misconduct. Below we summarize our        investigated an allegation of leave       Many of the concerns the OIG
findings and management’s response.       abuse in an organization at a TVA         received through e-mails, phone
                                          nuclear plant. While we did not find      calls, letters, and the OIG-sponsored
Manager Violates Ethics Rules                                                       Empowerline reporting system
and Makes False Statements to             misconduct, we did find a lack of
                                          controls over the overtime reporting      (www.oigempowerline.com), in our
OIG—An interim report was issued                                                    view, fell within management’s
to management that concluded the          process. In response to our findings,
                                          management implemented a new              responsibility to initially review
evidence developed to-date showed a                                                 and take any appropriate action.
TVA manager made false statements         overtime policy.
                                                                                    Accordingly, we referred issues to
during an OIG interview and their         TVA Employees Accept Gratuities           the TVA Ombudsman, TVA Human
explanations for those false statements   in Violation of Ethics Regulations—       Resources officials, supervisory and
in the manager’s comments on a draft      We investigated various allegations       operations managers, and TVA Police
of the report were not credible. The      concerning a TVA contractor. While        administrators. In order to comply with
evidence further showed the individual    we found no criminal conduct, we          best practices established for corporate
violated ethics regulations and raised    found the contractor provided gifts       ethics and compliance programs, we
serious questions about their treatment   and gratuities that several TVA           asked management to provide us with
of a TVA contractor. We provided          employees accepted in violation of        their disposition of the concerns we
management an interim report              ethics regulations. The main recipient    referred to them. TVA management
because of the manager’s position         admitted accepting golf greens fees,      continued to be responsive to our
and the serious questions about their     meals, and Tennessee Titans tickets       referrals of matters which ranged from
integrity. The TVA manager resigned.      from a contractor representative. In      workplace issues to citizen complaints
In addition, management instituted        response to our findings, management      about TVA activities affecting the
additional controls over the contractor   advised the contractor not to provide     public. Their responses indicated they
and took steps to improve ethics          gratuities to TVA employees in the        reviewed appropriate documents,
training in these particular areas.       future and suggested additional TVA       interviewed individuals, and took
Leave Abuse Leads to Suspension—          employees take ethics training.           actions such as counseling, improving
Investigation of allegations concerning                                             communications, and providing
                                          Management Makes Control
leave abuse in a department at a                                                    training. We also interacted with the
                                          Improvements—We investigated an
TVA nuclear plant found only one                                                    TVA Ethics and Compliance Office
                                          allegation that the supervisors on a
issue that management had not                                                       in monitoring the types of concerns
                                          team at a nuclear site were paying
already identified and corrected.                                                   received TVA-wide and management’s
                                          overtime for less than full days. Our
One employee was absent from work                                                   actions in response to them.
                                          investigation did not find wrongdoing,
for numerous days in 2006 without         but did identify
approved leave. The employee was          control weaknesses.
suspended for 30 days and their days      Management
off were converted to unpaid leave.       implemented a new
TVA Employee Suspended for                overtime policy that
Four Weeks—Our investigation              ended flex time and
substantiated that a TVA employee         stopped employees from
made a hangman’s noose and                leaving early without
gave it to an African American            taking leave. In addition,
TVA employee, who made statements         the new policy includes
to the OIG about being upset by           an overtime timesheet to
the incident. The employee who            be filled out and signed
made the noose, however, did not          by each employee and
                                                                   Investigations

                                                            51
Congressional Request and Summary
of Legislation and Regulations


In a December 2007                                     LEGISLATION AND REGULATIONS

letter addressed to the                                The OIG in fulfilling its responsibilities under the IG Act of 1978, as amended,
                                                       reviews existing and proposed legislation and regulations that relate to the
63 federal Inspectors
                                                       programs and operations of TVA. Although TVA’s Office of the General
General, Congressman                                   Counsel reviews proposed or enacted legislation that could affect TVA activities,
Henry Waxman asked                                     the OIG independently follows and reviews proposed legislation that affects the
                                                       OIG and/or relates to economy and efficiency or waste, fraud, and abuse in
them to summarize                                      TVA programs or operations.
each unimplemented
                                                       Major pieces of legislation being followed by the TVA OIG include the
recommendation to their                                “Inspector General Reform Act of 2008,” S. 2324. The purpose of the bill is to
                                                       strengthen the independence of federal Inspectors General.
agency, estimate the
cost savings and other
                                                       Senate Bill 2324 would:
benefits, and describe the
investigation that prompted                            •	Require Congressional notification      •	Prohibit payment of cash awards and
                                                         of the removal of any IG and the          bonuses to IGs.
the recommendation.
                                                         reasons for the removal.
                                                                                                 •	Broaden the requirement for
CONGRESSIONAL REQUEST                                  •	Expand the reporting requirements         the IG semiannual reports by
                                                         for IG budgets.                           making inspection and evaluation
“We want to see whether the IGs                                                                    reports part of the semiannual
are doing their job and whether                        •	Require all IGs to have their own
                                                                                                   reporting process.
the agencies are doing theirs,”                          legal counsel.
Congressman Waxman said.                                                                         •	Require (1) all IG Web sites to be
                                                       •	Establish an IG council on integrity
                                                                                                   directly accessible from the home
Our response indicates that of 1,7343                    and efficiency.
                                                                                                   page of agency Web sites; and
recommendations the TVA OIG has
                                                       •	Clarify that the subpoena authority       (2) all IG reports be posted on
made, only 15 are past due, which
                                                         of IGs extends to electronic              agency Web sites within three
is less than one percent of the total
                                                         documents, and require additional         working days of their public release.
recommendations. Nearly 92 percent
of the recommendations to TVA have                       reports by IGs and the Government
been implemented since 2001 and                          Accountability Office.
about 7 percent are currently open.                    •	Raise the annual salary level of
A prominent example of a response                        31 specified presidentially appointed
that is still outstanding is the one to the              IGs from Level IV to Level III of
June 2006 inspection entitled ”Review                    the executive schedule, plus an
of TVA’s Role as a Rate Regulator.” TVA                  additional 3 percent; other IGs must
has informed TVA OIG that they will                      receive compensation comparable to
provide a response to this report by                     other senior level executives
August of this year.                                     in the department.
3
 	This includes inspection data which is excluded from audit data shown in Appendix 4.

                                                                               52
Similar legislation, the Improving          passed the House by a vote                The Office of Personnel Management
Government Accountability Act, H.R.         of 331-94. S. 274 passed the Senate       reports that a survey it conducted
928, introduced in the House of             by unanimous consent. Whistleblower       shows that about 44 percent of federal
Representatives by Congressman Jim          protection is important to the work       agencies provide telework training to
Cooper (D-TN), passed the House of          of IGs.                                   employees. The TVA OIG provides
Representatives on October 3, 2007,                                                   such training.
                                            Another piece of legislation the OIG is
received overwhelming bipartisan
                                            following is the Telework Enhancement     A fourth piece of legislation the OIG
approval with a vote of 404-11.
                                            Act of 2007 (S. 1000) and its             is following is the Moratorium on
We are in general support of this           counterpart in the House, the Telework    Uncontrolled Power Plants Act of
bipartisan legislation which we believe     Improvements Act of 2007 (H.R.            2008. The bill places a moratorium on
will enhance IG independence and            4106). The Senate version would make      the issuance of permits, by either the
improve OIG operations. IG Moore            federal employees eligible for telework   EPA or the states, for new coal-fired
is a member of the PCIE Legislation         unless employers specifically show        electric generating units unless the
Committee.                                  why they should not participate in the    permit requires the unit to use state-of-
                                            program. The House version would          the-art control technology to capture
The OIG is also following
                                            allow federal employees, with certain     and permanently sequester carbon
Whistleblower legislation in the U.S.
                                            specified exceptions, to telework at      dioxide emissions.
Senate and House of Representatives.
                                            least 20 percent of the hours worked
In December 2007, the U.S. Senate
                                            in every two administrative workweeks.
passed the Federal Employee
                                            Both the Senate and House versions
Protection of Disclosures Act (S.
                                            of the Bill require each federal
274). Earlier in the year, the House
                                            agency to designate one full-time
passed its version of the law, i.e., the
                                            employee as a Telework Managing
Whistleblower Protection Enhancement
                                            Officer to coordinate and promote
Act (H.R. 985). The House bill is
                                            teleworking in the agency. The Senate
more encompassing, as it includes
                                            bill was approved by the U.S. Senate
protections for contractor employees
                                            Homeland Security and Government
and provides for federal jury trials, but
                                            Affairs Committee on November 14,
each bill provides additional protection
                                            2007. The legislation went through
to federal employees who expose
                                            markup in the House on
fraud, waste, and abuse. H.R. 985
                                            March 13, 2008.




                                                              53
Appendices




appendix 1

INDEX OF REPORTING REQUIREMENTS UNDER THE IG ACT

REPORTING	          REQUIREMENT	                                                            PAGE

Section 4(a)(2)	    Review of Legislation and Regulations	                                 52-53

Section 5(a)(1)	    Significant Problems, Abuses, and Deficiencies	                        40-51

Section 5(a)(2)	    Recommendations With Respect to Significant Problems,
                    Abuses, and Deficiencies	                                              40-51

Section 5(a)(3)	    Recommendations Described in Previous Semiannual Reports
                    on Which Corrective Action Has Not Been Completed	                 Appendix 4

Section 5(a)(4)	    Matters Referred to Prosecutive Authorities and the Prosecutions
                    and Convictions That Have Resulted	                                Appendix 5

Section 5(a)(5)	    Summary of Instances Where Information Was Refused	                     None
and 6(b)(2)

Section 5(a)(6)	    Listing of Audit Reports	                                          Appendix 2

Section 5(a)(7)	    Summary of Particularly Significant Reports	                           40-51

Section 5(a)(8)	    Status of Management Decisions for Audit Reports
                    Containing Questioned Costs	                                       Appendix 3

Section 5(a)(9)	    Status of Management Decisions for Audit Reports
                    Containing Recommendations That Funds Be Put to Better Use	        Appendix 3

Section 5(a)(10)	   Summary of Unresolved Audit Reports Issued Prior to the
                    Beginning of the Reporting Period For Which No Management
                    Decision Had Been Made By the End of the Reporting Period	              None

Section 5(a)(11)	   Significant Revised Management Decisions	                               None

Section 5(a)(12)	   Significant Management Decisions With Which
                    the Inspector General Disagreed	                                        None

Section 5(a)(13)	   Information under Federal Financial Management
                    Improvement Act of 1996	                                                None




                                                        54
appendix 2

AUDIT REPORTS ISSUED
 AUDIT REPORT 				                                                                FUNDS TO
 NUMBER 		            QUESTIONED	 UNSUPPORTED	                                    BE PUT TO
 AND DATE	     TITLE	 COSTS	      COSTS	                                          BETTER USE

 CONTRACT

2007-11166	      Preaward Audit –
10/02/2007	      Request for Proposal (RFP) 51507 		                            $28,700,000

2007-11182	 Bicentennial Volunteers, Inc.	 $ 63,755	                 $ 44,855
10/19/2007			

2007-11165-01	   Preaward Audit – RFP 51507		                                     9,747,000
11/01/2007

2007-11165-02	   Preaward Audit – RFP 51507		                                        74,000
11/15/2007

2007-11165	      Preaward Audit – RFP 51507		                                    11,669,000
11/27/2007

2007-11165-03	   Preaward Audit – RFP 51507		                                     3,050,000
12/13/2007

2007-11027	      Pinkerton Government Services	           267,676	
01/17/2008

2007-11189	      Bechtel Power Corporation – 	            25,331	
01/28/2008	      Subcontract with Stone & Webster

2007-11340	      Preaward Audit – RFP 00002007		                                 47,750,000
01/28/2008

2007-11189-01	   Bechtel Power Corporation –
02/15/2008	      Subcontract with Stone & Webster	        417,715		

2007-11169	      University of Tennessee
03/12/2008

2007-024C	       Review of TVA’s Contract Award Process
03/31/2008




                                                     55
appendix 2        (continued)




AUDIT REPORTS ISSUED
 AUDIT REPORT 				                                             FUNDS TO
 NUMBER 		            QUESTIONED	 UNSUPPORTED	                 BE PUT TO
 AND DATE	     TITLE	 COSTS	      COSTS	                       BETTER USE

 FINANCIAL

2007-11203	      Asset Retirement Obligation-Non-Nuclear –
10/15/2007	      SOX 404 Readiness Testing		

2007-11161	      Gas-Physical –
11/02/2007	      SOX 404 Readiness Testing		

2007-11133	 Review of FY 2007 Financial Statement Audit
12/12/2007			

2007-11234	      Financial Trading Program –
12/14/2007	      SOX 404 Readiness Testing		

2007-11294	      Perform Overhead//Benefits Allocation –
12/20/2007	      SOX 404 Readiness Testing		

2007-11380	      Maintain Rate Structure –
01/28/2008	      SOX 404 Readiness Testing		

2008-11503	      Lease/Leaseback Transactions –
02/05/2008	      SOX 404 Testing

2008-11507	      Costing Inventory –
02/26/2008	      SOX 404 Testing		

2008-11499	      Commitments and Contingencies –
02/28/2008	      SOX 404 Testing		

2008-11527	      Manage Taxes –
02/29/2008	      SOX 404 Testing	

2008-11535	      Emissions Allowance-Transaction Execution –
03/05/2008	      SOX 404 Testing		

2008-11534	      Managing Debt –
03/19/2008	      SOX 404 Testing			

2008-11570	      U.S. Treasury Note-Issue and Redeem –
03/19/2008	      SOX 404 Testing			




                                                  56
appendix 2                        (continued)




AUDIT REPORTS ISSUED
    AUDIT REPORT 				                                                                                                                                FUNDS TO
    NUMBER 		            QUESTIONED	 UNSUPPORTED	                                                                                                    BE PUT TO
    AND DATE	     TITLE	 COSTS	      COSTS	                                                                                                          BETTER USE

    INFORMATION TECHNOLOGY

    2007-11191	                 Power Billing System –
    10/24/2007	                 SOX 404 Readiness Testing			

    2007-11275	                 Payroll Application –
    10/24/2007	                 SOX 404 Readiness Testing			

    2006-009T	                  TVA Security Controls Related
    11/08/2007	                 to the Personnel Access
    	                           Data System (PADS)			

    2007-11198	                 Review of Risk Assessment Performed
    11/20/2007	                 on Personally Identifiable Information			

    2007-11276	                 eWorkplace Application –
    12/03/2007	                 SOX 404 Readiness Testing			

    2007-11192	                 Backup and Restore –
    12/10/2007	                 SOX 404 Readiness Testing			

    2007-11348-01	 IT Security Organizational Effectiveness
    03/26/2008				

    2007-11348	                 Information Services
    03/27/2008	                 Organizational Effectiveness			

    2007-007T	                  Pre-implementation Review
    03/31/2008	                 of TVA’s New Electronic Access System		

    OPERATIONAL	                			

    2007-11330	                 Agreed-Upon Procedures-
    10/26/2007	                 TVA FY 2007 Performance Measures			

    2007-030F	 Review of TVA Hospitality Expense
    11/06/2007				

    2007-019F-01	               Review of Reportable Environmental
    12/17/2007	                 Events at TVA Facilities			

    2007-11229
    02/29/2008	                 New Executive Orientation			

    TOTAL: 	                    38	                                                  $774,4771	                      $44,855	              $100,990,0002


Note: On the OIG Web site, a summary or a full report can be found for some of the audits listed (http://www.oig.tva.gov).

1
    Questioned costs include $417,715 for unreasonable or unnecessary expenditures not recoverable.
2
    Funds to be put to better use include $28,700,000 identified in preaward audits of proposals for contracts that were not subsequently awarded.

                                                                                  57
appendix 3

TABLE I: AUDIT REPORTS ISSUED WITH QUESTIONED COSTS
    		                                                                             NUMBER OF	                 QUESTIONED	                UNSUPPORTED
    AUDIT REPORTS	                                                                 REPORTS	                   COSTS	                     COSTS

    A.	For which no management decision 	                                               1	                    $42,704	                   $0
       has been made by the commencement of the period	

    B.	 Which were issued during the reporting period	                                  4	                    $774,477	                  $44,855

    Subtotal (A+B)		                                                                    5	                    $817,181	                  $44,855

    C.	For which a management decision was made 	                                       51	                   $817,181	                  $44,855
       during the reporting period	

    	   1. Dollar value of recommendations	                                             4	                    $370,085	                  $19,855
           agreed to by management

    	   2. Dollar value of recommendations	                                             2	                    $447,096	                  $25,000
           not agreed to by management

    D.	For which no management decision 	                                               0	                    $0	                        $0
       has been made by the end of the reporting period

    E.	 For which no management decision
        was made within six months of issuance	                                         0	                    $0	                        $0


TABLE II: AUDIT REPORTS ISSUED WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
    			                                                                                                       NUMBER OF	                 FUNDS TO BE PUT
    AUDIT REPORTS		                                                                                           REPORTS	                   TO BETTER USE

    A. For which no management decision has been made 		                                                            0	                   $0
       by the commencement of the period	

    B. Which were issued during the reporting period		                                                              6	                   $100,990,000

    Subtotal (A+B)		                                                                                                6	                   $100,990,000

    C. For which a management decision was made
       during the reporting period		                                                                                62	                  $100,990,000

    	   1. Dollar value of disallowed costs		                                                                       5	                   $53,986,500

    	   2. Dollar value of costs not disallowed		                                                                   5	                   $47,003,500

    D. For which no management decision has been
       made by the end of the reporting period		                                                                    0	                   $0

    E. For which no management decision was made
       within six months of issuance		                                                                              0	                   $0

.The total number of reports differs from the sum of C(1) and C(2) when the same report(s) contain both recommendations agreed to and others
1

 not agreed to by management.
.The total number of reports differs from the sum of C(1) and C(2) when the same report(s) contain both costs disallowed and others not disallowed
2

 by management.

                                                                              58
appendix 4

AUDIT REPORTS WITH CORRECTIVE ACTIONS PENDING

Final corrective actions stemming from two information technology audits are not complete; however, corrective action is
underway and scheduled for completion in accordance with the current, revised milestones.



    AUDIT REPORT 				
    NUMBER
    AND DATE	    DESCRIPTION

    2005-039T	                  eWorkplace Application, Access, and General Controls
    01/30/2006	                 This report included recommendations to strengthen controls over the time reporting system.
                                Weaknesses were identified in the areas of processing controls, direct data changes, logical
                                access controls, change management, and backup and contingency planning. TVA management
                                has completed action for all but two recommendations. TVA management is targeting
                                September 30, 2008 for completion of remaining actions.

    2006-035T	                  Assessing TVA’s Efforts to Protect Sensitive Information
    09/21/2006	                 We identified four areas for improvement. Management agreed and is taking corrective action.
                                The target completion date is September 30, 2008.




appendix 5

INVESTIGATIVE REFERRALS AND PROSECUTIVE RESULTS1

    REFERRALS

    Subjects Referred to U.S. Attorneys	                                                                                 19

    Subjects Referred to State/Local Authorities	                                                                         5

    RESULTS2

    Subject Indicted	                                                                                                     4

    Subjects Convicted	                                                                                                   3




.These numbers include task force activities and joint investigations with other agencies.
1


.Results include referrals from prior periods.
2




                                                                                59
appendix 6

HIGHLIGHTS THIS SEMIANNUAL REPORT
    	                                                                                MAR 31,	       SEPT 30,	   MAR 31,	    SEPT 30,	   MAR 31,
    	                                                                                 2008	          2007	       2007	       2006	       2006

    AUDITS

    AUDITS IN PROGRESS
    Carried Forward	                                                                      35	          36	          16	         201	       24
    Started	                                                                              52	          72	         42	           23	       22
    Canceled	                                                                             (2)	         (7)	         (4)	         (1)	      (3)
    Completed	                                                                          (38)	         (66)	       (18)	        (26)	      (22)
    In Progress at End of Reporting Period	                                               47	          35	         36	           16	        21

    AUDIT RESULTS (Thousands)
    Questioned Costs	                                                                 $774	        $4,635	      $1,252	     $1,411	       $774
    Disallowed by TVA	                                                                 370	         3,324	       1,429	       782	       1,122
    Recovered by TVA	                                                                3,339	         1,274	         695	       793	       1,641

    Funds to Be Put to Better Use	                                              $100,990	             $19	      $8,913	    $10,839	      $700
    Agreed to by TVA	                                                             53,987	           8,529	       4,534	      2,790	       633
    Realized by TVA	                                                              53,987	             948	       3,603	      2,287	       740

    OTHER AUDIT-RELATED PROJECTS
    Completed	                                                                            6	           17	         12	          11	        11
    Cost Savings Identified/Realized (Thousands)	                                        $0	           $0	       $103	          $0	       $36

    INVESTIGATIONS 2

    INVESTIGATION CASELOAD
    Opened	                                                                             155	         113	          73	          70	        80
    Closed	                                                                             121	         121	          50	         105	        71
    In Progress at End of Reporting Period	                                             174	         1401	        1481	        113	       1481

    INVESTIGATIVE RESULTS (Thousands)
    Recoveries	                                                                   $25,262	            $27	       $332	       $643	      $2,966
    Savings	                                                                        4,137	            575	         88	       1,039	      1,625
    Fines/Penalties	                                                                  206	              1	         10	          .5	          6

    MANAGEMENT ACTIONS
    Disciplinary Actions Taken (# of Subjects)	                                               9	        8	           4	          6	          9
    Counseling/Management Techniques Employed (# of Cases)	                                  16	        3	           7	         14	         14

    PROSECUTIVE ACTIVITIES (# of Subjects)
    Referred to U.S. Attorneys	                                                              19	        5	           6	           3	         5
    Indicted	                                                                                 4	        6	           2	           1	         3
    Convicted	                                                                                3	        2	           2	           1	         3

    INSPECTIONS

    Completed	                                                                            8	           16	          7	          20	        14
    Cost Savings Identified/Realized (Thousands)	                                        $0	          $15	        $15	          $0	        $0


. Adjusted from previous semiannual report.
1


.These numbers include task force activities and joint investigations with other agencies.
2



                                                                                60
appendix 8



TENNESSEE VALLEY REGION MAP


                                                                                                                                                                                                                                                                                        W .     V .



                                                  I   L       .
                                                                                                                                                                    K    E       N   T    U     C       K     Y
                                                                                                               Paradise
                                                                                                               Fossil Plant
                                                 Shawnee
                                               Fossil Plant                                                                                                                                                                                           V I      R     G      I N     I   A
                                                                         Kentucky
 M   I   S       S O      U    R I                     Marshall         Dam & Lock                                                                                                                                                                                                  Clear Creek
                                             Combustion Turbine
                                                                                                                                                                                                                                                                                       Beaver Creek

                                                                                                                                                                                                                                                      Ft. Patrick Henry        South
                                                                                                                                                                                                                                                                              Holston
                                                                                                                                                                                                                                                                     Boone
                                                                                                                                                                                                                                                                             Wilbur
                                                                                                                                                                                                     Doakes              John Sevier Fossil Plant
                                                                                                                                                                                                      Creek                              & Dam
                                                                               Cumberland                                                                                                                                                                                 Watauga
                                                                               Fossil Plant
 A   R   .                                           Gleason                                                                        Gallatin Fossil Plant
                                                 Combustion Turbine                                                                 &Combustion Turbine                                                                     Cherokee
                                                                                                                                                                                                               Norris

                                                                                                                                                                                                          Bull Run                       Nolichucky
                                                                                      Johnsonville                                                                                                        Fossil Plant         Douglas
                                                                                      Fossil Plant &
                                                                                      Combustion Turbine                                                                         Kingston             Melton
                                                                                                                                                                                  Fossil              Hill Lock
                                                                                                                                                                                   Plant              & Dam

                                                      T        Cedar E                  N                 N               E               S   Great Falls   S                E                  E        Ft. Loudoun Dam & Lock
                                                           Pin Oak                                                                                                                                      Tellico                                               N O R T H
                                Lagoon Creek                                 Redbud
                              Combustion Turbine          Beech
                                                                            Dogwood                                                                                Watts Bar         Watts Bar                                                         C     A R O L I N                    A
                                                                  Pine                                                                                          Nuclear Plant        Dam & Lock
                                                                        Lost Creek
                                                                   Sycamore
                                                                                                                              Normandy                                                                              Fontana


                                                                                                                                              Sequoyah Nuclear Plant
                                                                                                                                                                                         Apalachia          Hiwassee
                                                                                                                       Tims Ford Dam                                          Ocoee #1
                                                                                                                                          Chickamauga Dam & Lock                         Ocoee #2                 Chatuge
                     Allen Fossil Plant,                                                                                                                                                                                                                                S O U T H
                     Combustion Turbines, & Methane Facility              Pickwick Landing Dam & Lock                               Nickajack Dam & Lock

                                                                            Colbert Fossil                                                                  Raccoon
                                                                                                                                                                                          Ocoee #3           Nottely                                             C     A R O L I N                A
                                                                               Plant &                                                                      Mountain
                                                                             Combustion             Wheeler Dam                                             Pumped                                  Blue Ridge
                                                                               Turbine              & Lock                              Widows Creek        Storage
                                                                                                            Browns Ferry                 Fossil Plant
                                                                                                Wilson      Nuclear Plant
                                                                                                 Dam
                                                                                                & Lock
                                                                                 Cedar Creek
                                                                                  Little Bear Creek                  Guntersville
                                                                                                                     Dam & Lock
                                                                              Bear Creek
                                                                                                                                                                                                                                                                                        LEGEND
                                                                              Upper Bear Creek
                                                                                                                                                                          G      E   O      R       G    I A                                                                   State Line
             M   I    S S I         S S I        P    P I
                                                                                                                                                                                                                                                                               Water
                                                                                                                                                                                                                                                                               Power Service Area
                                                     Caledonia                                        A    L   A   B     A    M     A                                                                                                                                          TVA Watershed
                                             Combustion Turbine
                                                                                                                                                                                                                                                                               TVA Hydroelectric Dam
                                                                                                                                                                                                                                                                               TVA Non-Power Dam
                                                                                                                                                                                                                                                                               TVA Coal-Fired Plant
                                                                                                                                                                                                                                                                               TVA Nuclear Plant
                                                                                                                                                                                                                                                                               TVA Combustion Turbine Plant
                                                                                                                                                                                                                                                                               TVA Pumped-Storage Plant
                                                 Kemper
                                             Combustion Turbine
                                                                                                                                                                                                                                                                               TVA Customer Service Office
                                                                                                                                                                                                                                                                               TVA Economic Development Office
                                                                                                                                                                                                                                                                               Green Power Switch® Solar Site
                                                                                                                                                                                                                                                                               Green Power Switch® Wind Site
                                                                                                                                                                                                                                                                               Green Power Switch® Methane Site
                                                                                                                                                                                                                                                                               0        20        40   60 mi.
                                                                                                                                                                                                                                                                June 2006                                       N




                                                                                                                                                        62
 TENNESSEE VALLEY AUTHORITY
 OFFICE OF THE INSPECTOR GENERAL

 400 West Summit Hill Drive
 Knoxville, Tennessee 37902
 oig.tva.gov



We invite you to take a tour of our newly updated Web site at oig.tva.gov.
Our new video sheds light on fraud. A relatively new addition to the site is
an automatic notification system for our audits and inspections, and other
information placed on our Web page. You’ll also find a news release section
with the latest information released to the media.

Also, check out the latest edition of the OIG Connection, our e-publication
to TVA employees filled with interesting information about our staff, tidbits
on fraud, and an insightful look into how the work we do every day impacts
TVA stakeholders.



Check us out at oig.tva.gov


                  63
TENNESSEE VALLEY AUTHORITY
OFFICE OF THE INSPECTOR GENERAL

400 West Summit Hill Drive
Knoxville, Tennessee 37902
oig.tva.gov
